<html>
<title> - CONTINUING CHALLENGES TO THE VOTING RIGHTS ACT SINCE SHELBY COUNTY V. HOLDER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  CONTINUING CHALLENGES TO THE VOTING
              RIGHTS ACT SINCE ``SHELBY COUNTY V. HOLDER''

=======================================================================

                                HEARING

                               BEFORE THE

                          SUBCOMMITTEE ON THE
                 CONSTITUTION, CIVIL RIGHTS, AND CIVIL
                               LIBERTIES

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________

                           Serial No. 116-31

                               __________

         Printed for the use of the Committee on the Judiciary

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available http://judiciary.house.gov or www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-717                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
        
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director

                                 ------                                

            SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS, 
                          AND CIVIL LIBERTIES

                     STEVE COHEN, Tennessee, Chair
JAMIE RASKIN, Maryland               MIKE JOHNSON, Louisiana,
ERIC SWALWELL, California              Ranking Member
MARY GAY SCANLON, Pennsylvania       LOUIE GOHMERT, Texas
MADELEINE DEAN, Pennsylvania         JIM JORDAN, Ohio
SYLVIA R. GARCIA, Texas              GUY RESCHENTHALER, Pennsylvania
VERONICA ESCOBAR, Texas              BEN CLINE, Virginia
SHEILA JACKSON LEE, Texas            KELLY ARMSTRONG, North Dakota

                       James Park, Chief Counsel
                     Paul Taylor, Minority Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                             JUNE 25, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Steve Cohen, Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................    41
The Honorable Mike Johnson, Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................    43
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................    45
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................    47

                                WITNESS

Kristen Clarke, President & Executive Director, National Lawyers' 
  Committee for Civil Rights Under Law
    Oral Testimony...............................................     2
    Prepared Testimony...........................................     4
The Honorable Stacey Abrams, Chair, Fair Fight Action
    Oral Testimony...............................................    49
    Prepared Testimony...........................................    52
The Honorable Kyle Hawkins, Solicitor General of Texas, Office of 
  the Texas Attorney General
    Oral Testimony...............................................    57
    Prepared Testimony...........................................    59
Leah C. Aden, Deputy Director of Litigation, NAACP Legal Defense 
  & Educational Fund, Inc.
    Oral Testimony...............................................    83
    Prepared Testimony...........................................    86

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Item for the record submitted by the Honorable Sylvia Garcia, 
  Subcommittee on the Constitution, Civil Rights, and Civil 
  Liberties......................................................   113
Item for the record submitted by the Honorable Veronica Escobar, 
  Subcommittee on the Constitution, Civil Rights, and Civil 
  Liberties......................................................   161
Statement for the record submitted by the Honorable Sheila 
  Jackson Lee, Subcommittee on the Constitution, Civil Rights, 
  and Civil Liberties............................................   166
Item for the record submitted by the Honorable Doug Collins, 
  Ranking Member, Committee on the Judiciary.....................   179

                                APPENDIX

Item for the record submitted by The Honorable Steve Cohen, 
  Chairman, Subcommittee on the Constitution, Civil Rights, and 
  Civil Liberties................................................   192

 
 CONTINUING CHALLENGES TO THE VOTING RIGHTS ACT SINCE SHELBY COUNTY V. 
                                 HOLDER

                              ----------                              


                         TUESDAY, JUNE 25, 2019

                        House of Representatives

            Subcommittee on the Constitution, Civil Rights, 
                          and Civil Liberties

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 2:44 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Steve Cohen 
[chairman of the subcommittee] presiding.
    Present: Representatives Cohen, Nadler, Raskin, Dean, 
Garcia, Escobar, Jackson, Johnson, Collins, Gohmert, Jordan, 
Reschenthaler, Cline, and Armstrong
    Staff Present: David Greengrass, Senior Counsel; John Doty, 
Senior Advisor; Lisette Morton, Director, Policy Planning and 
Member Services; Madeline Strasser, Chief Clerk; Moh Sharma, 
Member Services and Outreach Advisor; Susan Jensen, 
Parliamentarian/Senior Counsel; Julian Gerson, Staff Assistant; 
Keenan Keller, Senior Counsel; Will Emmons, Professional Staff 
Member; Paul Taylor, Minority Counsel; and Andrea Woodard, 
Minority Professional Staff Member.
    Mr. Cohen. The Committee on the Judiciary Subcommittee on 
the Constitution, Civil Rights, and Civil Liberties will come 
to order. Without objection, the chair is authorized to declare 
a recess of the subcommittee at any time. We welcome everyone's 
attendance here in the hearing on Continuing Challenges to the 
Voting Rights Act in Shelby County v. Holder. We know this is 
the 6th anniversary of Shelby County v. Holder.
    Normally, what we would do is I would give an opening 
statement of 5 minutes, and then the ranking member would give 
one of 5 minutes, but Ms. Clarke, one of our witnesses, has a 
3:40 train, which would have been easy to accomplish if it 
weren't for the House of Representatives' schedule. And with 
the permission of the ranking member, we are going to go 
straight to her statement and then go back into the traditional 
my talk, he talk, somebody else talk, the panel.
    So Ms. Clarke, thank you so much for being here. Ms. Clarke 
is the President and Executive Director of the National Lawyers 
Committee for Civil Rights Under Law, one of the Nation's 
leading civil rights organizations. She previously worked for 
several years at the NAACP Legal Defense and Education Fund, 
where she helped lead the organization's work in the areas of 
voting rights and election law across the country and worked on 
cases defending the constitutionality of the Voting Rights Act.
    Prior to joining the Legal Defense Fund, she worked in the 
Civil Rights Division at the cannot of justice, serving as a 
prosecutor in the criminal section of the Division of Voting 
Rights and redistricting cases through the division's voting 
section. She received her J.D. from Columbia University and her 
Bachelor's degree from another ivy school called Harvard.
    I normally give you the warning. I give you the warning. 
You start, you have got a green light, it goes off in 4 
minutes, a yellow light, and that means you have got--yellow 
light is off, you have to got to go to the train. You are 
recognized for 5 minutes.

STATEMENTS OF KRISTEN CLARKE, PRESIDENT AND EXECUTIVE DIRECTOR, 
 NATIONAL LAWYERS' COMMITTEE FOR CIVIL RIGHTS UNDER LAW; HON. 
STACEY ABRAMS, FOUNDER AND CHAIR, FAIR FIGHT ACTION; HON. KYLE 
   HAWKINS, SOLICITOR GENERAL OF TEXAS, OFFICE OF THE TEXAS 
  ATTORNEY GENERAL; LEAH ADEN, DEPUTY DIRECTOR OF LITIGATION, 
          NAACP LEGAL DEFENSE & EDUCATIONAL FUND, INC.

                  STATEMENT OF KRISTEN CLARKE

    Ms. Clarke. Thank you, Chairman Cohen, Ranking Member 
Johnson, and members of the Subcommittee on the Constitution, 
Civil Rights, and Civil Liberties. My name is Kristen Clarke, 
and I serve as the President and Executive Director of the 
Lawyers' Committee for Civil Rights Under Law, and I thank you 
for the opportunity to testify today on challenges to voting 
rights.
    My testimony today is shaped by my experience as an 
attorney who started off her career enforcing Section 5 of the 
Voting Rights Act at the Justice Department, as someone who 
litigated the Shelby County versus Holder case, and as someone 
who has worked to protect voting rights their entire career.
    The Voting Rights Act of 1965 transformed American 
democracy, and the Supreme Court's evisceration of the Section 
5 preclearance provision of the Act, coupled with a Justice 
Department that has abdicated its responsibility for enforcing 
remaining provisions of the Act, have placed the voting rights 
of our Nation's most vulnerable communities in peril. These 
dynamics have created a perfect storm, resulting in the 
resurgence of voting discrimination and voter suppression at 
levels not seen since the days of Jim Crow. It is worth 
underscoring that the current administration has not filed a 
single case under the Voting Rights Act. The Justice 
Department's silence is deafening.
    The Lawyers' Committee for Civil Rights Under Law has been 
at the forefront of the battle for equal voting rights since it 
was created in 1963 at the request of President John F. Kennedy 
to enlist the private bar's leadership and resources in 
combating voting discrimination and more. Today, our vast 
docket of voting rights litigation is among the most 
comprehensive and far-reaching, both geographically and in 
terms of issues raised, as any in the Nation.
    And by way of our election protection program, the Nation's 
largest nonpartisan voter protection effort, anchored by the 
866 Our Vote hotline, we have vetted complaints from tens of 
thousand of voters since Shelby, many revealing systemic voting 
discrimination. In short, this is how Shelby has impacted our 
democracy.
    First, we have seen the resurgence of discriminatory voting 
practices, some motivated by intentional discrimination. And 
this discrimination has been most intense in the very 
jurisdictions that were once covered by Section 5. They range 
from the consolidation of polling sites to make it less 
convenient for minority voters to vote, to the curtailing of 
early voting hours, the purging of minority voters from the 
rolls under the pretext of list maintenance, strict photo ID 
requirements, abuse of signature match verification 
requirements to reject absentee ballots, the threat of criminal 
prosecution, and more.
    Second, we have seen increased levels of recalcitrance and 
hostility among elected officials who institute and reinstitute 
discriminatory voting changes with impunity. Well-known 
examples come out of North Carolina, where the legislature 
adopted an omnibus bill that the Fourth Circuit found was 
crafted with surgical precision. My written testimony includes 
an appendix that outlines several cases since the Shelby 
decision that evidence this hostility.
    Third, the loss of public notice regarding changes in 
voting practices that could have a discriminatory effect is 
significant. Most suppressive actions occur in small towns 
sprinkled across the country, where constant oversight is 
difficult, if not impossible.
    Fourth, the public no longer has the ability to participate 
in the process of reviewing practices before they take effect. 
And between 2000 and 2010, DOJ received between 4,500 and 5,500 
submissions, capturing between 14,000 and 20,000 voting changes 
per year. Without Section 5, communities are in the dark, and 
unable to share critical information that can help to 
illuminate the discrimination that sometimes underlies voting 
changes.
    Fifth, the preclearance process had an identifiable 
deterrent effect that is now lost.
    Sixth, the status quo is not sustainable. Civil rights 
organizations are stepping up to fill the void created by the 
Shelby decision at insurmountable expense.
    And finally, this will be the first redistricting cycle in 
decades if Congress fails to restore the Voting Rights Act. A 
little over 12 years ago, both Chambers of Congress 
reauthorized the Act with tremendous bipartisan support. Many 
members of the House present for that vote are still here 
today. Bipartisan support for the Act has been consistent 
across the decades and should remain so today. The Supreme 
Court has put the ball in Congress' court, and this body must 
take action now to help our country safeguard the right to vote 
for all. Thank you.
    [The statement of Ms. Clarke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. You are welcome, Ms. Clarke, and thank you for 
your testimony. Because you are leaving, I want to first thank 
you, and I want you to know we are going to have the hardest 
questions for you. You still have to answer questions that we 
give you in writing, and you are going to get the hardest ones.
    Ms. Clarke. I thank you, Chairman.
    Mr. Cohen. I am sure you will handle them deftly.
    Ms. Clarke. Absolutely. Thank you, Chairman.
    Mr. Cohen. You are welcome. Thank you so much.
    I will now recognize myself for an opening statement. The 
right to vote is the most fundamental right of citizenship in 
our democracy. It is the base where it all starts, and that is 
where it happens. Yet, for most of our Nation's history, too 
many of our citizens have been denied the right to vote. For 
over a century, women were denied the right to vote, and for a 
century and a half, African Americans were the most brutally 
attacked, denying their rights to vote, especially in the deep 
south.
    On August 6 of 1965, our Nation took a momentous step 
towards correcting that injustice when President Lyndon Johnson 
signed into law the Voting Rights Act. That was the results of 
years of efforts by the civil rights monument led by heroes 
like our colleague, Representative John Lewis, and Dr. Martin 
Luther King and others, to get Congress to act on protecting 
voting rights for African Americans.
    I fear, however, the developments of the last several years 
have undermined the Act's basic protections. That is because 6 
years ago today in Shelby County v. Holder, the Supreme Court 
effectively suspended the Act's Section 5 preclearance 
requirement by striking down the coverage formula in Section 4 
that determined which jurisdictions would be subject to 
preclearance.
    In essence, they said not necessarily that those 
jurisdictions that had been under preclearance had cleaned up 
their act, but there were other jurisdictions that were maybe 
equally as bad or had done bad deeds as well. So they let the 
bad actors out because they thought there were new bad actors, 
and they kind of opened the door for everybody.
    Under that preclearance requirement, certain jurisdictions, 
predominantly in the deep south that had a history of 
discriminatory voting methods, they were required to obtain the 
approval of the Justice Department or the U.S. District Court 
for the District of Columbia before any proposed changes to 
voting practices or procedures could take effect. That 
preclearance requirement was crucial to vigorous and effective 
enforcement of the Act's guarantee of equal voting rights.
    The purpose of this preclearance requirement is to ensure 
the jurisdictions that are most likely to discriminate against 
minority voters would bear the burden of proving that any 
change to their voting laws were not discriminatory, rather 
than placing the burden of proof on discrimination victims. By 
placing the burden on jurisdictions with a history of 
discrimination to prove their innocence, Section 5 rightly 
prevented potentially discriminatory voting practices from 
taking effect before they could harm minority voters. In this 
way, Section 5 proved to be a significant means of protection 
for the rights of minority voters.
    Section 2 of the Voting Rights Act, which prohibits 
discrimination voting and remains in effect is, by itself, a 
less effective and significantly more cumbersome and expensive 
way to enforce the Act, factors that would dissuade even those 
with meritorious claims from pursuing enforcement litigation. 
Most importantly, plaintiffs cannot invoke Section 2 until 
after an alleged harm has taken place, thereby eroding the 
effectiveness of the Act, which is to see that the harm doesn't 
ever take place. The result of these factors would be the many 
practices and restrictions that undermine equal votes will 
simply go unchallenged because the harm has been done.
    These are reasons why Congress has repeatedly reauthorized 
Section 5 on an overwhelmingly bipartisan basis, most recently 
in 2006, when the House passed the VRA by a vote of 390-33, in 
the Senate 98-0. So at this time, it wasn't the Congress' 
fault. We were good.
    Incredibly, the Court's majority in Shelby County claimed 
that there was no evidence to support Congress' findings of 
continued discrimination in voting in the then-covered 
jurisdictions, notwithstanding thousands of pages of record 
evidence compiled by this subcommittee in 2006. This 
subcommittee, then in Republican hands, demonstrated a 
continuing need for this coverage formula.
    Telling events since the Shelby County decision have proved 
how wrong the Court was in its conclusion. Within hours of the 
decision, States like Texas and North Carolina that have been 
the subject of the Act's preclearance requirement, announced 
their intent to impose strict voting identification 
requirements. Other States that had also been subject to 
preclearance also wasted no time pursuing voting restrictions, 
and, once again, threatened to undermine the minority of voting 
rights, including practices like restriction or elimination of 
early voting, same-day registration, and bans on ex-offenders 
from voting, all of which make it disproportionately harder for 
racial and ethnic minorities to vote. It has a disparate impact 
against black voters, African American voters.
    Last year's Georgia Governor's race brought into full view 
the range of voter suppression practices in formerly covered 
jurisdictions. It may look subtle when viewed in isolation, but 
are pernicious and devastating in their cumulative effect. As 
Ms. Stacey Abrams, one of our witnesses, the Democratic nominee 
for Governor of Georgia in that race, knows from personal 
experience, her opponent, Brian Kemp, then the Georgia 
Secretary of State, embarked on what were a series of seemingly 
naked attempts to shrink the electorate, which was the job of 
the Secretary of State on those laws, but he chose to go about 
it in a particular manner. He also was her opponent. He is now 
the Governor of Georgia.
    His office purged more than 1.4 million voters from the 
rolls since 2010, including more than 600,000 Georgians in the 
year 2017, and then another 90,000 that were not purged in 2017 
in The Cleanup Act in 2018. Numerous voter registrations were 
cancelled because the voter had not voted in the previous 
election. Georgia also closed a tenth of its polling places 
since 2012, with the majority of closings occurring in poor 
counties, and those with significant African American 
populations.
    Georgia also enacted a, quote, ``exact match,'' unquote, 
law that resulted in 53,000 more voters being given only 
pending status on the voter registration because of minor 
errors on their registration forms, with more than 70 percent 
of those voters being African American. This is exactly the 
kind of attrition on voting rights that preclearance would have 
stopped from going into effect.
    Before the Voting Rights Act, the state of voting rights in 
the deep south was abysmal. In the mid 1950s, only one in four 
African American voters in the south was registered. With this 
robust preclearance requirement, the Act did dramatic positive 
effect on black voting registration in the south, which 
increased to 62 percent just 3 years after the Act became law, 
yet these gains and others are at risk because of the Shelby 
decision.
    The Supreme Court was wrong, in my opinion, to undermine 
the Voting Rights Act. Congress failed to act the last time we 
had a chance to do it. Hopefully, we won't fail again. Congress 
must now respond. It is imperative that we restore the Voting 
Rights Act preclearance requirement, so it is to stay true to 
the Act's purpose of ensuring equal voting rights for all.
    John Lewis and many others risked their lives. John Lewis 
was beaten in the head, marching for voting rights in Selma, 
Alabama. Others were killed in Selma, and other places in the 
south looking for voting rights. Voting rights are so 
important, and we can't let those people's deaths, those 
people's injuries, those people's efforts go for naught.
    I thank our witnesses for being here. I look forward to 
their testimony. I now yield for the opening statement from the 
ranking member, the Honorable gentleman from Louisiana, Mr. 
Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you all for 
being here for your interest today. I appreciate the 
opportunity to speak again on the duty and honor that Congress 
has to protect the fundamental right to vote in our country. 
All the sacrifices, the blood and the sweat and the tears that 
were put in by John Lewis and all those other legends and 
patriots and heroes will not be forgotten.
    While some have raised concerns regarding the Supreme 
Court's 2013 decision in Shelby County v. Holder, which struck 
down just one part of the Voting Rights Act, I would like to 
quote again from parts of that decision, because I think if we 
are going to talk about that decision today and its 
ramifications, it serves us well to articulate specifically 
what the Supreme Court actually said in that decision. I think 
the Court aptly described just how far this country has come.
    In its majority decision, the Court laid out the 
Constitutional infirmities of Section 4 of the VRA as follows, 
and I am just going to read you an important excerpt. Quote, 
``The Framers of the Constitution intended the States to keep 
for themselves, as provided in the 10th Amendment, the power to 
regulate elections. Not only do States retain sovereignty under 
the Constitution, there is also a fundamental principal of 
equal sovereignty among the States. Indeed, the Constitutional 
equality of the States is essential to the harmonious operation 
of the scheme upon which the Republic was organized. Section 4 
of the Voting Rights Act sharply departs from these basic 
principles. It suspends all changes to State election law, 
however innocuous, until they have been precleared by Federal 
authorities in Washington, D.C. In 1966, we found these 
departures from the basic features of our system of government 
justified.
    At the time, the coverage formula, the means of linking the 
exercise via unprecedented authority with the problem that 
warranted it, made sense. Nearly 50 years later, things have 
changed dramatically. In the covered jurisdictions, voter 
turnout and registration rates now approach parity. Blatantly 
discriminatory evasions of Federal decrees are rare, and 
minority candidates hold office at unprecedented levels.
    The tests and devices that blocked access to the ballot 
have been forbidden nationwide for more than 40 years. The 15th 
Amendment commands that the right to vote shall not be denied 
or abridged on account of race or color, and it gives Congress 
the power to enforce that command. The amendment is not 
designed to punish for the past. Its purpose is to ensure a 
better future.
    To serve that purpose, Congress, if it is to divide the 
States, must identify those jurisdictions to be singled out on 
the basis that makes sense in light of current conditions. It 
cannot rely simply on the past. Regardless of how to look at 
the record, however, no one can fairly say that it shows 
anything approaching the pervasive, flagrant, widespread, and 
rampant discrimination that faced Congress in 1965, and it 
clearly distinguished the covered jurisdictions from the rest 
of the Nation at that time.
    Our country has changed. And while any racial 
discrimination in voting is too much, Congress must ensure that 
the legislation it passes to remedy that problem speaks to 
current conditions,'' end of quote.
    That is what the Supreme Court said. And of course, I am 
sure everyone in this room agrees with those sentiments, and I 
have stated this before, Mr. Chairman, myself. At least some on 
this side agreed with what the Court said.
    Of course, we all agree that discriminatory treatment in 
voting based on race or sex is abhorrent. It is prohibited by 
the Constitution, as it should be. It is prohibited by Federal 
statue, as it should be. Regarding discriminatory treatment in 
voting that is based on race, Section 3 of the Voting Rights 
Act, which is permanent Federal statutory law, remains in place 
and full effect, as it should be.
    Several years ago, for example, U.S. District Judge Lee 
Rosenthal issued an opinion in a redistricting case that 
required the City of Pasadena, Texas, to be monitored by the 
Justice Department because it had intentionally changed its 
city council districts to decrease influence by citizens of 
Hispanic descent. The city, which the Court ruled, has a, 
quote, ``long history of discrimination against minorities,'' 
unquote, was required to have their future voting rules changes 
precleared by the Department of Justice for the next 6 years 
during which time the Federal judge, quote, ``retains 
jurisdiction to review before enforcement any change in the 
election map or plan that was in effect in Pasadena on December 
1, 2013,'' unquote.
    A change to the city's election plan can be enforced 
without review by the judge only it if has been submitted to 
the U.S. Attorney General, and the Justice Department has not 
objected within 60 days.
    We support Section 3 in its application to proven instances 
of discriminatory treatment in voting, and I look forward to 
hearing from all of our witnesses here today. That testimony 
will include that of the Office of the Texas Attorney General, 
which I understand has argued in the Supreme Court 31 times 
since 2000, and they have either completely or substantially 
won the vast majority of those cases. The Texas Attorney 
General's Office has argued two of the most important VRA cases 
in recent memory, Evenwel and Perez, and won them both. In 
those decisions, Texas won a total of 13 votes at the Court for 
its position compared to just four votes against. This is an 
office with a proven track record of legal acumen and 
understanding confirmed at the highest levels, and by the U.S. 
Supreme Court itself.
    Thank you all, again, for your time and testimony. We look 
forward to hearing from you, and I yield back.
    Mr. Cohen. Thank you, Mr. Johnson.
    It is now my pleasure to recognize the chairman of the full 
committee, who was the chairman of this committee for many 
years, and today I will announce him as the chairman emeritus 
of this subcommittee, but the chairman, I guess, is emeritus of 
all committees. Mr. Nadler.
    Chairman Nadler. Thank you, Mr. Chairman.
    The Voting Rights Act of 1965 is one of the most effective 
civil rights statutes that has ever been enacted into law. Six 
years ago today, however, the Supreme Court issued its 
disastrous decision in Shelby County v. Holder, thereby 
effectively gutting one of the Act's central enforcement 
provisions known as the preclearance requirement, when it 
struck down as unconstitutional the Act's coverage formula, 
which determined which jurisdictions would be subject to the 
preclearance requirement.
    Section 5 of the Voting Rights Act contains a preclearance 
provision that requires certain jurisdictions with a history of 
discrimination to submit any changes to their voting laws or 
practices to the Department of Justice for prior approval to 
ensure that they are not discriminatory.
    To understand why the preclearance requirement was so 
central to enforcing the VRA, it is worth remembering why it 
was enacted in the first place. Before the Voting Rights Act, 
States and localities passed voter suppression laws, securing 
the knowledge that it could take many years before the laws 
could be successfully challenged in court, if at all. As soon 
as one law was overturned, another would be enacted, 
essentially setting up a discriminatory game of whack a mole. 
Section 5's preclearance provision broke this legal logjam and 
helped to stop this discriminatory practice.
    Indeed, the success of the Voting Rights Act with this 
effective preclearance requirement was apparent almost 
immediately after the law went into effect. For instance, 
registration of African Americans voters more than doubled in 
the south within just 4 years of enactment. Similarly, African 
American voter turnout rose from only 6 percent to 59 percent 
in just 4 years in Mississippi, and it soared to 92 percent in 
Tennessee, 77 percent in Arkansas, and 73 percent in Texas in 
that same period.
    The Voting Rights Act's success can also be measured in 
terms of the number of African Americans holding elected 
office, jumping from barely 100 prior to the VRA's enactment to 
more than 7,200 today, with 4,800 holding elected office in the 
south alone. Moreover, the number of African Americans in 
Congress doubled almost immediately after the Voting Rights Act 
was enacted; and today, there are 56 African American Members 
of Congress. And of course, in 2008, the country elected its 
first African American President.
    In short, the Voting Rights Act was an unqualified success, 
and much of that success can be attributed to the ability to 
enforce it vigorously. Central to the ability to enforce 
vigorously the Act was its preclearance provision. By striking 
down the formula for determining which States and localities 
are subject to the preclearance requirement, the Shelby County 
decision effectively suspended the operation of the 
preclearance requirement itself, and in its absence, the game 
of whack a mole has returned with a vengeance.
    Within 24 hours of the Shelby County decision, for example, 
the Texas Attorney General and North Carolina's General 
Assembly announced that they would reinstitute draconian voter 
ID laws. Both of these States' laws were later held in Federal 
courts to be intentionally, intentionally, racially 
discriminatory. But during the years between their enactment 
and the Court's final decision, many elections were conducted 
while the discriminatory laws remained in place. At least 21 
other States have also enacted newly restrictive statewide 
voter laws since the Shelby County decision.
    Restoring the vitality of the Voting Rights Act is of 
critical importance. In 2006, when I was the ranking member of 
this subcommittee, we undertook an exhaustive process to build 
a record that demonstrated unequivocally the need to 
reauthorize the Voting Rights Act, provisions of which, like 
the preclearance requirement and the coverage formula that 
undergirded it, were expiring. At the time, the committee found 
that a majority of southern States were still engaged in 
ongoing discrimination. For instance, these States in the 
subdivisions engaged in racially discriminatory practices, such 
as relocating polling places for African Americans voters, and 
in the case of localities, annexing certain wards simply to 
satisfy white suburban voters who sought to circumvent the 
ability of African Americans to have a fair chance for elected 
office in their cities.
    Since the Shelby County decision, we have also seen the 
emergence of other voter suppression measures, like burdensome 
proof of citizenship laws, significant scale-backs to early 
voting periods, restrictions and absentee ballots, and laws 
that make it difficult to restore the voting rights of formerly 
incarcerated individuals. These kinds of voting practices have 
a disproportionate negative impact on minority voters.
    In the most recent elections in November of 2018, voters 
across the country encountered barriers to voting from State 
and local laws and circumstances that made it hard, or even 
impossible, to vote. For example, as our witness, Stacey 
Abrams, can attest to, in Georgia, 53,000 voter registrants, 70 
percent of whom are African American, were replaced in pending 
status by the Secretary of State, who was also, by 
happenstance, Ms. Abrams' election opponent, because of minor 
misspellings on their registration forms.
    A Federal court ultimately put a stop to this practice on 
November 2, 2018, 4 days before the election, because of the, 
quote, ``differential treatment inflicted on a group of 
individuals who were predominantly minorities,'' closed quote.
    While it is true that those seeking to enforce the Voting 
Rights Act can still pursue after-the-fact legal remedies even 
without preclearance, time and experience have proven that such 
an approach takes far longer and is far more expensive than 
having an effective preclearance regime. And once the vote has 
been denied, it cannot be recast. The damage to our democracy 
is permanent. That is why I hope the members on both sides of 
the aisle and in both Chambers of Congress will come together 
and pass legislation to restore the Voting Rights Act to its 
full vitality. The Supreme Court left us instructions on how to 
enact a new Section 4 that would pass constitutional muster.
    Today's hearing will provide an important opportunity to 
renew our understanding of the importance of the Voting Rights 
Act and its preclearance provision, and to support our efforts 
to craft a legislative solution to restore, where needed, the 
preclearance provisions of the Voting Rights Act. I thank our 
witnesses, and I look forward to their testimony.
    Mr. Cohen. Thank you, Chairman Nadler.
    It is now my pleasure to recognize the ranking member of 
the full committee, the gentleman from Georgia, Mr. Collins, 
for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman, and it is good to be 
here, and it is good to have a hearing like this, if for no 
other reason, to at least correct the record and things that 
have already been said.
    Number one. In Georgia, the six counties mentioned, it is a 
reminder that in Georgia, all six of those counties are under 
local control on where they actually place their voting times--
their voting locations, how many they actually use, and that 
has been that way for a long time. We will get into more 
discussion about that.
    It is interesting that we also talk about scaling back 
early voting in others, because as we will find out in this 
hearing, myself and actually a witness here today, voted to 
scale back 3 weeks in Georgia, and add a Saturday. And at the 
time, it was actually attested to on many occasions that it 
showed no discriminatory impact.
    In fact, actually, some of what we found was actually 
helpful to minority turnout in that. So as we look at this, 
this is the reason to have a hearing, and I am glad to see 
friends and witnesses who are here today.
    But the right to vote is of paramount importance in a 
democracy. Its protection of discriminatory barriers has been 
grounded in Federal law since the Civil War, and more recently, 
through the Voting Rights Act of 1965. In 2013, the Supreme 
Court struck down a single part of the Voting Rights Act, 
Section 4. That provision automatically put certain States and 
political subdivisions under the Act's Section 5 preclearance 
requirements. Those preclearance requirements prevented voting 
rule changes in covered jurisdictions from going into effect 
until the new rules had been reviewed and approved, either 
following a lawsuit in the D.C. District Court, or by more 
often, the Department of Justice.
    When the Voting Rights Act was first enacted, Section 4 
identified the jurisdictions automatically subject to the 
special preclearance requirements according to a formula. The 
first part of the formula provided a State or political 
subdivision would be covered if it maintained on November 1, 
1964, a test or device restricting the opportunity to register 
and vote.
    The second piece provided a State or political subdivision 
would also be covered if the Census director determined that 
less than 50 percent of the persons of voting age were 
registered to vote on November 1, 1964, or less than 50 percent 
of the voting age voted in the 1964 presidential election.
    In its Shelby County decision, the Supreme Court struck 
down these automatic preclearance provisions, ruling the 
original coverage formula was, quote, ``based on decades-old 
data and eradicated practices.'' In 1965, the States could be 
divided into two groups, those with a recent history of voting 
test and low voter registration and turnout, and those without 
those characteristics. Congress based its coverage formula on 
that distinction.
    Today, we see a different place, and yet, the Voting Rights 
Act continued to treat it as if it were still in that time. The 
courts further criticized Section 4's formula as relying on 
decades-old irrelevant data to decades-old problems rather than 
current data reflecting current needs.
    In Shelby County, the Supreme Court only struck down that 
single, outdated provision of the VRA. Significantly, other 
very important provisions of the Voting Rights Act remain 
firmly in place, including Section 2 and Section 3.
    Section 2 applies nationwide, prohibits voting practices or 
procedures that discriminate on the basis of race, color, or 
the ability to speak English, like other Federal civil rights 
laws. Section 2 is enforced via Federal lawsuits. The United 
States and civil rights organizations have brought Section 2 
cases in court, and still may do so in the future.
    Section 3 of the Voting Rights Act also remains in place, 
authorizing Federal courts to impose on States and political 
subdivisions that have enacted voting procedures treating 
people differently based on race in violation of the 14th and 
15th amendments. If the court finds a State or political 
subdivision treated people differently based on race, the court 
has the discretion to retain supervisory jurisdiction and 
impose preclearance requirements on the State or political 
subdivision as the court sees fit until a future date. This 
means that a State or political subdivision would have to 
submit all future voting rules and changes for approval to 
either the court itself or the Department of Justice before 
enacting those changes.
    Per the Code of Federal Regulations, under Section 3(c) of 
the Voting Rights Act, a court in voting rights litigation can 
order, as relief, that a jurisdiction not subject to a 
preclearance requirement of Section 5 preclearance voting 
changes by submitting them to the court, or to the Attorney 
General.
    Americans continue to safeguard voting rights for every 
citizen. Increased voter turnout reflects that commitment. In 
my home State of Georgia, which has been mentioned many times 
already, and will probably be again, voter turnout has expanded 
mightily. Between 2014 and 2018, turnout among Hispanics and 
African American voters has soared, increasing by double digits 
in a State that more and more Americans are choosing to call 
home.
    I look forward to discussing more of that, and hearing that 
as we go forward, but also look forward to ensuring that the 
ballot box remains open to all eligible voters, and I am 
looking forward to this hearing. I appreciate the witnesses 
being here. I am sure this will be an interesting discussion in 
which hearings tend to set facts straight. And with that, I 
yield back.
    Mr. Cohen. Thank you, Mr. Collins.
    We welcome all of our witnesses. Thank you for your 
indulgence in allowing Ms. Clarke to testify and make her 
train. I explained to you about the lights: 4 minutes green, 
yellow, you have got a minute left. Red, you don't have to go 
to the train, but you have to stop. You are all under the 
statutes that say that if you say anything that is false in 
your testimony, perjury, you are subject to up to 5 years in 
prison or both for making such a statement, so all your written 
and oral statements to the subcommittee shall be truthful and 
honest. I am sure of that.
    Our first witness is Ms. Stacey Abrams. Ms. Abrams is the 
founder and chair of Fair Fight Action, an organization 
dedicated to advancing voting rights and electoral reform. In 
2018, she was the Democratic nominee for Governor of the State 
of Georgia, the first African American woman in U.S. history 
nominated by a major party as its nominee for Governor. In that 
election, she received the highest voter turnout of any 
Democratic candidate in Georgia's history.
    Prior to running for Governor, she served in the Georgia 
General Assembly from 2007 to 2017, serving as the House 
minority leader from 2010 to 2017, and became the first woman 
to lead a party in the Georgia General Assembly, and the first 
African American leader of a party in the State House of 
Representatives. She received her J.D. degree from Yale Law 
School, and her Master of Public Affairs from the LBJ School of 
Public Affairs at the University of Texas at Austin, and her 
B.A., magnum cum laude, from Spelman College.
    Ms. Abrams, you are recognized for 5 minutes. We appreciate 
your attendance.

                STATEMENT OF HON. STACEY ABRAMS

    Ms. Abrams. Thank you, Mr. Chairman, Ranking Member 
Johnson, committee members. Thank you for allowing me to 
address this important hearing today.
    The Shelby decision created a new channel for the troubling 
practice of voter suppression during a time of dramatic 
demographic change. However, no assault on democracy will ever 
be limited to its targets. As the franchise is weakened, all 
citizens feel the effects, which is why restoration of the full 
power of the Voting Rights Act must occur.
    I come today because I was raised in Mississippi, where my 
parents joined the civil rights movement as teenagers, and they 
instilled in their six children a deep respect for the right to 
vote. I came of age in Georgia where I registered voters while 
in college, served as Georgia House minority leader, and where 
I stood for office as the Democratic nominee for Governor in 
2018.
    Jurisdictions formerly covered under Section 5, joined now 
by States with changing demographics, have raced to reinstate, 
or create new hurdles to voter registration, ballot access, and 
ballot counting. Among the States, however, Georgia, has been 
one of the most aggressive in leveraging the lack of Federal 
oversight to use both law and policy to target voters of color.
    In 2014, I founded The New Georgia Project, one of the 
State's largest voter registration organizations. Minorities 
are twice as likely to register through third-party 
registration as are whites. Post Shelby, legislation and 
practices in States like Georgia, Tennessee, North Carolina, 
Texas, Wisconsin, and Florida, seek to impede these activities. 
Then-Georgia Secretary of State Brian Kemp, who was also 
responsible for the oversight of local elections officials, 
refused to take action to process registration forms in a 
timely manner. Later, we discovered unpublished internal rules, 
such as the 90-day blackout period during which no voter 
registration forms were processed, causing delays that denied 
registrants the right to vote. In 2017, citizens challenged and 
eliminated the secret policy through the Federal courts.
    Due to the volume of new Georgia Project registrations, 
which we tracked via paper ballots, we also proved the racially 
discriminatory effect of the exact match process which requires 
perfect data entry by government employees to secure a proper 
registration. In 2009, under preclearance requirements, the 
Justice Department summarily rejected exact match as 
presenting, quote, ``real, substantial, and retrogressive 
burdens on voters of color.''
    Post Shelby, however, Mr. Kemp implemented the discredited 
exact match policies empowered by a lack of Justice Department 
preclearance. In 2016, Mr. Kemp agreed to process approximately 
34,000 suspended applications. Despite this 2016 Federal 
settlement, Kemp ushered another iteration of exact match 
through the State legislature in 2017, leading to 53,000 
suspended voter registrations in 2018, 70 percent of whom were 
black voters, who comprise roughly 30 percent of Georgia's 
eligible voters.
    Remaining on the voter rolls also poses challenges. Under 
Kemp's post-Shelby regime, facially neutral rules for removing 
voters who have died or left the State, became tools for voter 
purges. In total, he removed over 1.4 million voters from the 
rolls, including purging half a million voters in a single day 
in 2017, an 8 percent reduction in Georgia's voting population. 
An estimated 107,000 of these voters were removed through 
arguably unconstitutional application of the use-it-or-lose-it 
law.
    One of the most pernicious effects of Shelby can be found 
in the very act of casting a vote. Section 5 provided an 
effective check against hyperlocal suppressive tactics, like 
excessive poll closures, or challenge proceedings against 
voters of color as occurred in Georgia in 2015. Of 159 counties 
in Georgia, 156 counties removed the highest rate of voters 
from the rolls post Shelby, which resulted in an increase in 
the number of voter being forced to cast provisional ballots.
    Last election cycle, separate Federal courts ruled against 
Georgia policies for rejecting absentee ballots and valid 
applications under trivial pretenses for implementing an 
inconsistent provisional ballot system, and for improperly 
disallowing access to translators in the polling booths. While 
these lawsuits brought remedy to some, thousands more may have 
faced similar discrimination, without the resources or the 
knowledge to gain relief.
    Post Shelby voting rights groups must too often rely on 
resource-intensive litigation and advocacy work to protect the 
fundamental right to vote for voters of color. This anti-voting 
system has the concomitant effect of harming taxpayers as 
States must expend tax dollars to defend voter suppression in 
court.
    At the end of the 2018 contest, I acknowledged the legal 
result of an election marred by widespread election 
irregularities. I also redoubled my commitment to voting rights 
through the creation of Fair Fight Action, which has filed a 
federal lawsuit against the Georgia electoral system, asking 
for Georgia's preclearance requirement to be reinstated under 
Section 3. The proposed Voting Rights Advancement Act, and 
Voting Rights Amendment Act, represent considerable progress 
towards restoring the power of the Voting Rights Act, including 
modern-day protections that require nationwide preclearance to 
attack the broad reach of voter suppression.
    I strongly urge Congress to take action today, and I thank 
you for the opportunity to address this committee.
    [The statement of Ms. Abrams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you very much, Ms. Abrams, and you were 
perfect on 5 minutes.
    Ms. Abrams. Not my first rodeo.
    Mr. Cohen. Not many people have been to a rodeo on this 
committee. You have not been a witness.
    Mr. Armstrong. I have been to a rodeo.
    Mr. Cohen. Okay. Good. Good. Good. Thank you. So have I.
    Mr. Kyle Hawkins, who has been to a rodeo, I presume, is 
the Solicitor General of Texas. He represents the State in high 
profile matters before the Federal and State appellate courts, 
including the Supreme Court of the United States. Mr. Hawkins 
previously practiced law in Washington, D.C. in the Dallas 
office of Gibson, Dunn & Crutcher, LLP, where he was a member 
of the appellate and constitutional law practice group. He also 
served as law clerk to the Honorable Samuel A. Alito, Jr., 
Associate Justice, United States Supreme Court, and the 
Honorable Edith Jones of the U.S. Court of Appeals for the 
Fifth Circuit.
    Mr. Hawkins is a summa cum laude graduate of the University 
of Minnesota Law School, and received his undergraduate degree, 
magna cum laude, from Harvard. You have been to a rodeo?
    Mr. Hawkins. I have been to many rodeos, Mr. Chairman.
    Mr. Cohen. Good. You are recognized for 5 minutes, sir. 
Thank you.

                 STATEMENT OF HON. KYLE HAWKINS

    Mr. Hawkins. Chairman Cohen, Ranking Member Johnson, and 
members of the subcommittee, thank you very much for inviting 
me here today to testify about the Supreme Court's decision in 
Shelby County v. Holder.
    In Shelby County, the Supreme Court held that the coverage 
formula subjecting certain jurisdictions to preclearance under 
Section 5 of the Voting Rights Act was unconstitutional. When 
Congress enacted the Voting Rights Act of 1965, it imposed a 
novel restriction known as preclearance on various southern 
States and localities that shared two characteristics: the use 
of tests and devices for voter registration, and the voting 
rate in the 1964 presidential election at least 12 points below 
the national average.
    Congress tailored the original formula to include those 
States, because it found that widespread and persistent 
discrimination in voting in the early 1960s had typically 
entailed the misuse of test and devices, and this was the evil 
for which the remedies were specifically designed.
    The Supreme Court emphasized in Shelby County that the 
Constitution's allocation of power to the Federal Government 
and the States preserves the integrity, dignity, and residual 
sovereignty of the States. The Court explained that the 
Constitution also incorporates the fundamental principle of 
equal sovereignty among the States, and the powers reserved to 
the States by the Framers include broad authority over the 
conduct of elections.
    As the Supreme Court specifically noted in Shelby County, 
the Framers of the Constitution intended the States to keep for 
themselves as provided in the Tenth Amendment the power to 
regulate elections, that is, States have broad powers to 
determine the conditions under which the right of suffrage may 
be exercised.
    Preclearance under Section 5 of the Voting Rights Act is 
inconsistent with those central pillars of federalism because 
it forbids States to enforce their duly enacted voting laws 
until they secure permission from the Federal Government. 
Preclearance is thus an extraordinary measure that entails, as 
the Court put it in Shelby County, a drastic departure from the 
basic principles of federalism. So the real question at issue 
in Shelby County was whether the on-the-ground conditions were 
sufficient to justify that drastic departure.
    The Supreme Court squarely held no. Specifically, it held 
that preclearance must be reserved for extraordinary situations 
in which a jurisdiction is guilty of pervasive, flagrant, 
widespread, and rampant discrimination that cannot be remedied 
through normal litigation. That is, preclearance is justified 
only when the State is so determined to evade the commands of 
the 14th or 15th Amendments, that its citizens will be unable 
to protect their constitutional rights through traditional 
litigation under existing law.
    To be sure, the Supreme Court has recognized past 
situations sufficient to justify preclearance. The 
extraordinary burdens of a preclearance regime could be 
appropriate in a world in which aggrieved citizens are unable 
to use traditional litigation to secure relief against a 
State's flagrantly unconstitutional voting laws. In 1965, 
Congress found that those conditions existed in the States 
originally targeted by the preclearance regime, and the Supreme 
Court upheld that use of preclearance in the Katzenbach case.
    However, more than 50 years later, recent voting rights 
litigation in Texas shows that traditional litigation is more 
than adequate to identify and prevent violations of the 
Constitution and the Voting Rights Act. The courts have not 
hesitated to identify potential legal violations, and the Texas 
legislature has acted promptly to address them.
    For example, in litigation over Texas' voter identification 
law, the State agreed to a temporary remedial order to address 
a claim under Section 2 of the Voting Rights Act. In the next 
legislative session, the Texas legislature amended its voter 
identification law to incorporate the court-ordered remedy, 
which allows individuals who cannot secure a qualifying photo 
ID, to cast a regular in-person ballot by executing an 
affidavit at the polls.
    The Fifth Circuit later held that the amended statute 
provided an effective remedy for the only deficiencies 
testified to in the preexisting law. Those actions bear no 
resemblance to the conduct that justified preclearance in 1965, 
when officials in certain States routinely took steps to evade 
Federal court orders and prolong their resistance to the 15th 
Amendment. Rather than try to stay one step ahead of the courts 
in an effort to defy the Constitution, the State of Texas has 
followed the court's lead in an effort to conform its voting 
laws to the Constitution and the Voting Rights Act. Under 
governing Supreme Court authority, those conditions cannot 
justify preclearance.
    Thank you, again, for inviting me to testify. I look 
forward to your questions.
    [The statement of Mr. Hawkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, sir.
    Our next witness is Ms. Leah Aden, Deputy Director of 
Litigation at the NAACP Legal Defense and Education Fund. She 
was a member of the Legal Defense Fund's litigation team in 
Shelby County v. Holder. Since that decision, she successfully 
led the Legal Defense Fund's efforts to block the 
implementation of discriminatory voting changes. She has also 
recently authored ``Democracy Diminished: State and Local 
Threats to Voting Post Shelby County, Alabama v. Holder,'' 
which details State, county, and local voting changes proposed 
or implemented during the more than 3 years since the Supreme 
Court decision in Shelby County, and continues to track post-
Shelby County voting changes.
    She received her J.D. from Howard University School of Law 
and a B.A. in History and African American Studies from 
Columbia University, and also served as law clerk for the 
Honorable John T. Nixon, who is a friend of mine at the U.S. 
District Court of Appeals for the Middle District of Tennessee, 
a very great judge, unusual, and a wonderful human being.
    Ms. Aden, you are recognized for 5 minutes.

                   STATEMENT OF LEAH C. ADEN

    Ms. Aden. Thank you. Good afternoon, Chairman Cohen, 
Ranking Member Johnson, and Chairman Nadler, and other members 
of the subcommittee. Again, my name is Leah Aden, and I am a 
Deputy Director of Litigation at the NAACP Legal Defense and 
Educational Fund. Thank you for the opportunity to share 
information about what LDF has observed regarding barriers to 
voting since the U.S. Supreme Court's 2013 decision in Shelby 
County, Alabama versus Holder.
    Since its founding in 1940 by Thurgood Marshall, LDF's 
mission is, and has always been, to promote racial justice and 
equality. Beginning with Smith v. Allwright, a case arising out 
of Texas, our successful Supreme Court case challenged the use 
of all whites primary elections in 1944. And since then, LDF 
has fought to overcome the myriad of obstacles put before black 
voters to ensure our full, equal, and active participation in 
American life.
    The right to vote for black people today, and for other 
people of color is facing its greatest threat in decades. As 
you know, the Shelby County decision invalidated the 
preclearance provision of Section 5 of the Voting Rights Act, 
removing the obligation of jurisdictions with a history and 
ongoing record of discrimination from submitting proposed 
voting changes to a Federal authority for approval. This 
process ensured that those changes would not discriminate 
against African American and other voters.
    The result of the Shelby decision was predictable. As 
Chairmen Cohen and Nadler have mentioned, within hours of the 
decision, the Texas Attorney General tweeted out his intention 
to implement a photo ID law that the State had been forbidden 
from implementing under Section 5. Other jurisdictions, 
including Alabama, followed suit. Even more alarming, voter 
suppression has metastasized in the years since the Shelby 
decision with places like Wisconsin, North Dakota, and 
jurisdictions in Kansas adopting laws and practices which 
result in voter suppression.
    Since the Shelby decision, LDF has tracked and recorded 
discriminatory voting changes in places previously protected by 
Section 5 that we can become aware of, and we do so in a 
regularly updated report, Democracy Diminished, and we have 
provided copies of this report to each member of this 
committee. Our documentation and examination of the plethora of 
discriminatory voting changes proposed or implemented since 
Shelby, our annual Election Day voter protection work, and our 
own experience litigating cases, challenging voter suppression 
schemes enables LDF to state, unequivocally, that there is a 
critical and urgent need for Congress to act to restore and 
strengthen the full protections of the Voting Rights Act.
    The genius of Congress' Section 5 preclearance mechanism is 
that it stopped discrimination before the harm occurred. While 
we still have Section 2, as you all have heard, that authorizes 
us to challenge discriminatory voting practices in Federal 
courts, it is not enough. Even when we are successful 
litigating these cases, the relief comes too late and at too 
great a cost in terms of time, money, and burden, for hundreds 
of thousands of voters. Millions.
    One case dramatically illustrates this. We successfully 
challenged Texas' voter ID law, judicially recognized as the 
most stringent voter ID law in the country. The trial court 
found that the law violated Section 2's results test and was 
enacted intentionally to discriminate against African American 
and Latino voters. We proved at trial that more than a half 
million registered voters, and up to a million eligible voters 
were disenfranchised by the ID law. The Fifth Circuit Court of 
Appeals affirmed that the law violated the Voting Rights Act.
    But during the 3 years in which we litigated the case 
through trial, and before voters received relief, Texas elected 
a U.S. Senator, all 36 members of the Texas delegation to the 
U.S. House of Representatives, a Governor, a Lieutenant 
Governor, Attorney General, Controller, all 150 Members of the 
State house, over 175 trial court judges, and over 75 District 
Attorneys. Relief simply was too late for voters across all of 
those elections.
    Since Shelby, Federal courts have found that officials in 
five different States have passed racially discriminatory 
voting laws, intentionally for the purpose of discriminating 
against black and Latino voters. Ms. Clarke mentioned the North 
Carolina case.
    There is a voter suppression crisis in our country, and 
Congress has an obligation to use the enforcement powers it was 
bestowed in the 14th and 15th Amendment to the U.S. 
Constitution, to amend the Voting Rights Act to protect 
minority voters from racially discriminatory voting schemes.
    The Supreme Court, in Shelby, rejected Congress' 
determination, despite the extensive record that Congress 
amassed that the preclearance process was necessary. The court, 
in particular, as you have heard, objected to what it regarded 
as a targeting of mostly southern States.
    I agree with you, Chairman Cohen, that Congress got it 
wrong in Shelby, and substituted its own judgment for Congress, 
but the Shelby decision is the law, and any effort by this body 
to amended the Voting Rights Act must be undertaken with 
attention to the court's guidance in that case. H.R. 4 does 
precisely that. It proposes a nationwide formula without 
geographic limitation that will require any jurisdiction that 
engages in systematic discrimination to submit voting changes 
to a Federal authority for preclearance.
    And I look forward to hearing your questions and being able 
to answer them.
    [The statement of Ms. Aden follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you. And I will proceed first with the 5-
minute rule and recognize myself.
    First, in your statement, I believe you said the court had 
it--Congress had it wrong and the court had it right. Is that 
what--did I hear it wrong, or did you say it wrong?
    Ms. Aden. If I misstate, misspoke, I definitely mean that 
Congress had it absolutely right, and the Supreme Court had it 
wrong.
    Mr. Cohen. I thought that is what it was. Yeah. Congress 
finally got it right.
    Ms. Aden. And they got it right on multiple times over 
multiplied decades under different administrations.
    Mr. Cohen. Right after the Holder case, Texas had a photo 
ID law. Ms. Aden, do you know what happened with the attack on 
that law and what the Supreme Court--what the courts ruled in 
those voter ID?
    Ms. Aden. I know it quite well, because I am part of the 
team among many members who have been litigating that case now 
for 7 or 8 years.
    So we have to step back and also remember that the Texas 
photo ID law, which has been recognized as the strictest in the 
Nation at one time, was adopted in the context of a legislature 
that had also adopted racially discriminatory voting plans that 
had been found to be intentionally discriminatory for the State 
House and for Congress.
    That same body, post 2010, adopted a strict photo ID law, 
and it was blocked by Section 5, because the record then, as 
the record came to show after trial and after several appeals, 
prohibited up to 600,000 registered Texas voters, and up to 1 
million eligible voters to vote. This was a law that was 
crafted to allow people with handgun licenses 
disproportionately held by white voters, to vote, but student 
IDs, tribal IDs, Native American tribal IDs, Federal and State 
employee IDs were carved out of that law, so that people could 
not participate in the political process.
    We went to trial in 2014, and the Court found that the law 
violated the results test of Section 2, and also violated 
various provisions of the U.S. Constitution. That case went up, 
and the en banc court of the Fifth Circuit confirmed that that 
law, and by ``en banc,'' I mean the full panel of the Fifth 
Circuit affirmed that that law has discriminatory results. And 
our position is that the--and subsequently, remanded the case.
    There was an interim remedy. Well, frankly, Texas had to be 
forced to come up with a remedy for voting--for its 
discriminatory photo ID law. They had to be forced after they 
were told by Section 5, after people provided testimony before 
them, that the law was discriminatory, they had to be forced 
into an interim remedy. That interim remedy was subsequently 
upheld by another three-judge panel of the Fifth Circuit. 
Frankly, our position is that that decision did not disturb the 
intent ruling.
    Mr. Cohen. Was that remedy that possibly the law that Mr. 
Hawkins said was passed----
    Ms. Aden. Yeah, and that is part of----
    Mr. Cohen [continuing]. But was that after an election had 
taken place?
    Ms. Aden. That was after many elections.
    Mr. Cohen. So what remedy was available to those voters who 
were affected by a law that the court said was discriminatory?
    Ms. Aden. Absolutely none. Millions, if not hundreds of 
thousands of votes were lost after----
    Mr. Cohen. So it is not a rodeo, but the cattle are out of 
the barn. They have gone. There is nothing you can do at that 
point.
    Ms. Aden. They are over. People have been elected. That was 
genius behind Section 5, that Congress understood that 
elections would take place, and we need to block harm before 
elections take place, before the cancer of racial 
discrimination takes root, before people get the benefit of 
discrimination, and the victims of discrimination have to then 
race into court at the cost of hundreds of thousand, if not 
millions of dollars, to uproot discrimination.
    Mr. Cohen. Thank you so much.
    Ms. Abrams, Mr. Hawkins said in his written testimony that 
the current conditions in terms of voting rights aren't so bad, 
that we have really done a great job, and it is not like 1965, 
and we are just doing wonderful, good things, in essence, and 
the preclearance requirement is not necessary. In other words, 
he thinks the Supreme Court got it right in Shelby when he 
concluded that Congress exceeded its constitutional authority 
to impose preclearance requirements on certain States and 
localities. This is federalism, but sometimes the States go too 
far, and they interfere with the Federal statutes or Federal 
constitutional privileges, and then the Feds have to come in.
    What do you think about Mr. Hawkins' position that we don't 
need the preclearance requirement anymore?
    Ms. Abrams. I vehemently disagree. I grew up in 
Mississippi, I live in Georgia, and I recently went through a 
fairly public display of the need for preclearance. Mr. Kemp, 
the current Governor, then Secretary of State, had been denied 
the ability to impose the exact match policy under 
preclearance. The moment Shelby was passed, he reinstituted 
this policy.
    In 2016, he had to enter into a Federal settlement, because 
34,000 voters were denied the right to vote in an election 
cycle; in fact, over two elections cycles. He agreed to the 
settlement in 2016, and the very next year, ushered through a 
different iteration of the exact same discriminatory policy. 
And in 2018, a third court told him to stop it because--sorry, 
a second court, because 53,000 voters were suspended from being 
able to register to vote. That is a small kernel of an example.
    The State of Georgia has found itself in multiple lawsuits 
where upon adjudication, the State has been told that their 
actions were racially discriminatory. That means that people 
have been denied the right to vote. They will never be able to 
unring that bell. And I believe that preclearance--in fact, we 
know empirically that preclearance would have permitted more 
voters to cast their ballots because the policies that denied 
them the right to vote would not have been enacted.
    Mr. Cohen. Thank you. And I just have to say, because it is 
one of the things I think about a lot. You said you are from 
Mississippi, and I want to say some nice things about Nina 
Simone.
    Ms. Abrams. Thank you.
    Mr. Cohen. You are welcome.
    Mr. Johnson, you are recognized.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Hawkins, Texas has been evoked a number of times today, 
and at the outset, let me just ask you: Is there anything that 
has been said here today or submitted in the written record 
that you would like to respond to as Solicitor General of that 
State?
    Mr. Hawkins. Yes, Representative. I would like to do that. 
Thank you for the opportunity. There has been a lot said about 
the Texas voter ID law and litigation, and I would like to set 
the record straight on that.
    First, no District Court has ever found that any number of 
voters were disenfranchised. The Fifth Circuit found that 95 
percent of Texas voters already had a qualifying photo ID, and 
the ones who didn't could simply get a qualifying photo ID to 
comply with that law, which, by the way, has been supplanted by 
new legislation and is now obsolete. That is not 
disenfranchisement under any reasonable definition.
    In any event, the notion that minority voters were targeted 
by the voter ID law was contradicted by the plaintiff's own 
expert witness, who offered data showing that the small 
percentage of Texans who did not already have a qualifying 
photo ID, the majority of them were white voters.
    I would also like to speak to the importance of voter ID 
set against the context of Supreme Court precedent. The Supreme 
Court held, in Crawford v. Marion County, that voter ID laws 
serve the legitimate State interest of protecting the integrity 
and reliability of the electoral process and increasing public 
confidence in elections.
    As former President Jimmy Carter once explained, the 
electoral system cannot inspire public confidence if no 
safeguards exist to deter or detect fraud, or to confirm the 
identity of voters. The Texas legislature studied this issue 
and concluded that in-person voter fraud is a problem. The 
legislature concluded in reliance on Crawford, and on the 
Carter Baker report, that a photo ID requirement would help 
combat in-person voter fraud. Furthermore, voter ID is a key 
method for detecting in-person voter fraud. It is very hard to 
spot in-person voter fraud absent a photo ID requirement.
    Finally, I think the Supreme Court's decision in Purcell v. 
Gonzalez, is very instructive on this point, and I would like 
to briefly read the key portion of the Supreme Court's binding 
analysis:
    ``A State indisputably has a compelling interest in 
preserving the integrity of its election process. Confidence in 
the integrity of our electoral processes is essential to the 
functioning of our participatory democracy. Voter fraud drives 
honest citizens out of the democratic process and breeds 
distrust of our government. Voters who fear their legitimate 
votes will be outweighed by fraudulent ones will feel 
disenfranchised. The right of suffrage can be denied by a 
debasement or dilution of the weight of a citizen's vote just 
as effectively as by wholly prohibiting the free exercise of 
the franchise.'' That is a quote from Purcell v. Gonzalez.
    Just a couple of other points on the voter ID litigation. 
There were 14 individual plaintiffs in that case, and the 
evidence showed that not a single one of those plaintiffs had 
been disenfranchised. Nine of them were eligible to vote by 
mail without a photo ID. Three had a compliant ID. One chose to 
get a California ID instead of a Texas ID, and one had the 
documents that were necessary to get an ID.
    Finally, voter turnout was unaffected in the elections 
following the implementation of S. 14, which was the voter ID 
law at issue there. As I indicated, the Texas legislature 
passed a new voter ID law, S. 5. That is now law in Texas. It 
has not been challenged.
    Mr. Johnson. Thank you for clarifying the record. That is 
important today. Could you walk us through how a generic case 
could be brought under Section 3 of the Voting Rights Act? In 
other words, in what steps would it proceed?
    Mr. Hawkins. Yes, Representative. I would be happy to do 
that. That raises an important point that Section 2 and Section 
3 of the Voting Rights Act remain fully intact notwithstanding 
the Supreme Court's decision in Shelby County. I believe all of 
the witnesses before the subcommittee today agree on that 
point.
    When somebody believes that they are the victim of 
intentional discrimination, they can bring an action under the 
Voting Rights Act Section 2. And if, indeed, the conditions are 
those that resemble the conditions in 1965 that justified 
preclearance in the first place, Section 3(c) provides a remedy 
to address that called the bail in process.
    The bail in process is like a targeted form of 
preclearance. It can be set for a certain amount of time, it 
can cover certain areas. It is a surgical ability to impose a 
type of preclearance regime on a locality that truly 
demonstrates the same conditions that existed in the early 
1960s that justified preclearance in the first place. Those two 
parts of the Voting Rights Act are still very much in place. 
They are being litigated to this day, notwithstanding Shelby 
County 6 years ago which had nothing to do with those 
provisions.
    Mr. Johnson. I am out of time. I appreciate all of you. I 
yield back.
    Mr. Cohen. Thank you, sir. I now recognize Mr. Nadler for 5 
minutes.
    Chairman Nadler. Thank you.
    Ms. Abrams, as we have in numerous cases, challenging 
discriminatory voting laws since the Shelby County decision, 
litigation takes years to resolve and can cost millions of 
dollars to completion. Moreover, discrimination victims can 
initiate such litigation only after they have been harmed. Even 
while litigation is ongoing, States that continue to advance 
more restrictions on the right to vote.
    In a world that is effectively without a preclearance 
requirement, how has the cost and length of private litigation 
impacted the ability of civil rights groups to protect voters?
    Ms. Abrams. It is a crippling burden that has been placed 
on organizations that have to seek outside financial support in 
order to secure fundamentally guaranteed rights to vote. My 
organization, The New Georgia Project, which we founded in 
2014, had to pursue years of litigation to undo some of the 
challenges we discovered.
    As I mentioned earlier, the exact match process only came 
to light because of the 34,000 applications that were 
suspended. And under a settlement in 2016, 2 years after the 
initial election, Secretary Kemp then agreed to restore their 
right to vote. We had a 90-day rule, which created a blackout 
period during which thousands of applications to register to 
vote were not processed, which meant that at least 20,000 that 
we know of were held up until after the election. They were not 
timely processed because of an unwritten rule, that had 
preclearance been in effect, would have come to light.
    It took us 2\1/2\ years of litigation and discovery for us 
to discover this problem. And in 2017, 3 years after we 
uncovered this issue, they finally had a Federal court to 
essentially eliminate the ability to use this 90-day suspension 
rule.
    These are only two examples of what has hit organizations, 
is that they are being forced to combat massive State budgets 
that allow taxpayers to fund voter suppression until such time 
as those who are most vulnerable and most harmed can muster the 
resources to defend themselves and to restore the right to 
vote.
    Chairman Nadler. Thank you.
    Ms. Aden, Mr. Hawkins argues that Congress must identify 
congruent and proportional constitutional violations. 
Specifically, that any State subjected to preclearance has 
engaged in rampant, widespread, recalcitrant discrimination so 
pervasive that it cannot be adequately addressed by judicial 
remedies, in order to constitutionally justify imposing 
substantial federalism costs for the preclearance requirement.
    He also asserts that based on current facts, Congress could 
not meet such a standard and, therefore, may exceed its 
authority under the 15th Amendment if we now impose a 
preclearance requirement. How would you respond to that?
    Ms. Aden. Thank you for that question. So I agree that 
Section 5 is meant to get at the whack a mole, the adaptive 
discrimination, but I do adamantly disagree that we have to 
demonstrate that conditions existed like they were in 1965 or 
before then, because Congress surmised with the evidence before 
it that discrimination is ingenious, that it morphs into the 
next bad thing.
    And I think it is important that we also talk and continue 
to look at Texas, because the record there is one of many that 
shows the pervasiveness of discrimination. The Fifth Circuit 
has ruled on the Texas voter ID law, and the merits of that 
case have been decided, so I am not going to continue to 
dispute that the Fifth Circuit has determined that the law was 
racially discriminatory.
    But then we can look to what, again, the legislature did 
with its redistricting plans. They had found 2011 Congressional 
and State House plans had been determined to be intentionally 
discriminatory, and I heard members of the commission say that 
is abhorrent, that intentional discrimination is abhorrent. We 
have seen abhorrent behavior in Texas. And if you look not just 
at its ID law, but if you look at the redistricting plans, you 
can look at the intentional discrimination found by a District 
Court in Pasadena where the Federal court has ordered that 
jurisdiction to be subject to bail in. You can see what Waller 
County has done, decade after decade, trying to discriminate 
against historically black students at Prairie View and AMU. 
You can see what the legislature tried to do this last session 
with S.B. 9 trying to put through an omnibus voter suppression 
bill. I mean, you can look at that one jurisdiction, and Ms. 
Abrams can talk in detail about Georgia, and we can look across 
the country, and that record exists.
    Chairman Nadler. Thank you.
    Ms. Aden. Yes.
    Chairman Nadler. Thank you. I have one more question----
    Ms. Aden. Yes.
    Chairman Nadler [continuing]. Before we run out of time.
    Should the Department of Justice, or perhaps the court, be 
granted, in a new Voting Rights Act jurisdiction, to 
retroactively invalidate an election and order a new election 
when it is proven that there was substantial discrimination 
that exceeds the margin of victory of a candidate?
    Ms. Aden. You know, before answering that directly, 
Congress is operating at the apex of its power by enforcing the 
14th and 15th Amendments. And what we saw during the Section 5, 
nearly 50 years of Section 5 operating, is that it was 
necessary on certain occasions to invalidate elections.
    In fact, the case that came to the Supreme Court in Shelby 
County was the result of white voters, someone mentioned 
annexations, annexing black voters out of a district. It went 
from being 80 percent black to under 30 percent black in a 
majority black district, and those annexations over time 
weren't precleared.
    Ultimately, the law required that an election be held under 
a fair electoral system. And so, I do think that that is more 
the exception than the rule, and that we need to think about 
going forward what mechanism do we have in place so that people 
don't have to marshal the resources to run into court.
    Congress should also look at strengthening the preliminary 
injunction standard, because that is another thing that makes 
it very difficult for the victims of discrimination to be able 
to stop discrimination before it happens. But to your question, 
I do think there are exceptional circumstances where redoing an 
election when there has been a racially discriminatory, 
abhorrent practice is something that can take place, but we 
need a mechanism where no election takes place under a racially 
discriminatory regime.
    Chairman Nadler. Thank you. My time has expired. I yield 
back.
    Mr. Cohen. Thank you, Mr. Chair.
    I now recognize Mr. Cline, the distinguished member from 
the far western part of Virginia.
    Mr. Cline. Thank you, Mr. Chairman. I thank the witnesses 
for being here.
    In 1965, Congress enacted the Voting Rights Act to address 
deep-rooted racial discrimination in voting. The Voting Rights 
Act was the most significant statutory change since the 
Reconstruction period following the Civil War and the 
relationship between State governments and the Federal 
Government in terms of voting, and it was immediately 
challenged in the courts. Between 1965 and 1969, the Supreme 
Court issued several key decisions upholding the 
constitutionality of Section 5, and affirming the broad range 
of voting practices for which preclearance was required.
    Now we have the decision in Shelby where the court ruled 
Section 4(b) is unconstitutional because it covers formulas 
based on data over 40 years old, thereby making it no longer 
responsive to current needs and an impermissible burden on the 
constitutional principles of federalism that equals sovereignty 
of the States.
    The Supreme Court decision in Shelby is now considered a 
landmark case regarding the constitutionality of the Voting 
Rights Act, and with many questions remaining, I am happy to 
have this hearing to discuss the impact of Shelby. I would 
first--well, let me first ask Mr. Hawkins if there is anything 
he would like to respond to that was said.
    Mr. Hawkins. Thank you, Representative. Just a couple of 
things in response. My colleagues have referred to purposeful 
discrimination findings made by District Courts. Not a single 
one of them has survived appeal. In the voter ID case, for 
example, the court, the Fifth Circuit explicitly vacated and 
reversed the District Court's purposeful discrimination finding 
in that case. All other findings have met the same fates.
    As to the claim that Texas' behavior demonstrates a need 
for preclearance, I think the opposite is true. What we have 
seen in the redistricting case in the voting rights, or the 
voter ID case that we have been talking about today, is Texas 
has responded to that litigation by working to conform its laws 
to the requirements of the Voting Rights Act, and the 
requirements of the Constitution.
    As I discussed earlier, when Texas' voting rights--or 
excuse me--voter ID law was challenged, S.B. 14, rather than 
pursue another appeal to the Supreme Court following the en 
banc vote, Texas changed its law. Likewise, in the 
redistricting case, in redistricting litigation following the 
2010 Census, a Federal District Court ordered interim remedial 
redistricting plans into effect, because the legislatively 
enacted plans had not been precleared.
    Consistent with the Supreme Court's instructions in Perez 
v. Perry, the District Court conducted only a preliminary view 
of claims against the State's plans, but the court-ordered 
interim plans made extensive changes. The Texas legislature 
repealed its challenged plans and permanently adopted the 
court-ordered plans in its next session.
    So what we have seen in the case of Texas is a State 
conforming its laws to the requirements of the Constitution, 
the Voting Rights Act, and the Supreme Court. That is a far cry 
from the landscape in 1965 when the covered jurisdictions were 
deliberately acting in bad faith to evade the review of the 
Supreme Court, forestall their compliance with the 15th 
Amendment, and suppress voters illegally.
    Mr. Cline. In fact, that is federalism at work, is it not, 
the States responding to the court's direction with affirmative 
legislative action?
    Mr. Hawkins. It is, Representative, and that is one of the 
Supreme Court's core themes in the Shelby County decision. The 
States created the Federal Government. In no other context do 
States have to run their laws by the Federal Government to get 
permission in advance of enforcing them.
    The preclearance regime that the Voting Rights Act created 
was the one exception to that general rule, and it was 
justified only by the extreme conditions on the ground in the 
south in the early 1960s. That is the core holding of the 
Supreme Court's Shelby County decision.
    Absent those extreme concerns, federalism and the co-equal 
sovereignty of the States does not allow Congress to impose 
that type of regime, and that is the core holding of Shelby 
County in 2013.
    Mr. Cline. In fact, laws such as regular maintenance of 
voter rolls and photo ID laws are commonplace among States at 
this point, correct?
    Mr. Hawkins. Absolutely, Representative. There is nothing 
unusual or noteworthy about a State auditing its voter rolls to 
ensure that only eligible voters are registered to vote. In 
fact, I have just seen in the news this week reports that 
California is looking at its own voter rolls to ensure that 
only eligible voters are registered.
    The coverage I have seen indicated that in Los Angeles 
County, there are far more registered voters than there are 
eligible voters, and I understand that jurisdiction is taking a 
look at that to figure out what is going on. States and 
counties do this all the time. They have an obligation to do so 
consistent with Federal law to ensure that only eligible voters 
are voting.
    Mr. Cline. Thank you, Mr. Chairman. I yield back.
    Mr. Cohen. Thank you, Mr. Cline.
    Mr. Raskin is recognized for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you.
    The States did not create the Union. We, the people, 
created the Union in the Constitution. That is what we fought 
the Civil War about. It was the claim of the confederacy that 
it was a handshake among the States, and Lincoln explicitly 
rejected that and said the people created the Union and the 
Constitution, and no State could opt out of it. No State could 
secede, so I think we settled that question a century and a 
half ago.
    Disenfranchisement used to be relatively simple. In the 
first century, the law simply said that African Americans 
couldn't vote. Before the Civil War, the States just made it 
plain that--then we had a Civil War. We passed the 13th and 
14th and 15th Amendments, which established that the States 
could not discriminate on the basis of race, and for a period, 
the Constitution worked. That was Reconstruction, and we had 
African Americans voting in huge numbers throughout the former 
confederacy and African Americans getting elected to high 
offices in the States and getting elected to this body.
    And then there was a savage assault on Reconstruction. Some 
of it was through violence led by the KKK, and the former 
confederates. But a long period of subtle, legal 
disenfranchisement began with literacy tests, poll taxes, 
grandfather clauses, white primaries, character exams. And the 
second Reconstruction, which was the modern civil rights 
movement, targeted all of those practices with the Voting 
Rights Act of 1965, and specifically, with Section 5, which Ms. 
Aden has elaborated so well here. It said before the States 
that engaged in massive disenfranchisement and extinguishment 
of people's political rights for decades could make changes to 
voting practices, they had to first go to the Department of 
Justice, or to the U.S. District Court for the District of 
Columbia. Because if we allow them to go ahead and impose 
another disenfranchising mechanism, and they finally get to 
court 6 months or 8 months or 12 months later, it is too late 
to do anything. It is meaningless. That is what Section 5 and 
the preclearance requirement is all about.
    Now, we are living in a period where there is an attack on 
the second Reconstruction, on the modern civil rights movement 
and the Voting Rights Act, and we got it from a gerrymandered 
conservative Supreme Court in 2013 in Shelby County v. Holder, 
which basically decapitated the Voting Rights Act in Shelby 
County v. Holder.
    Now, Ms. Abrams, it is an honor to have you here before the 
House Judiciary Committee. I heard you mention a bunch of new 
techniques of disfranchisement, voter purges, 90-day blackout 
period, refusing to process voter registration, exact match 
process. Can you tell me quickly what are the one or two worst 
techniques that were used in Georgia that disfranchised the 
people of the State in the last election?
    Ms. Abrams. Certainly. Thank you for the question. Exact 
match, I think, is the most obvious and deliberate and the 
strongest proof point for the need for preclearance, because it 
was denied under preclearance and only existed because 
preclearance disappeared.
    Mr. Raskin. Will you explain just very briefly again what 
exact match is?
    Ms. Abrams. Exact match requires perfect data entry by 
government employees. When you submit your application, if 
there is a hyphen missing, if your last name is spelled with a 
space, and they decline to enter the space, your application 
can be rejected. And in Georgia's system, there is no notice to 
the applicant of what the problem is.
    So you receive this circular firing squad of receiving 
information that you have been rejected. You resubmit the 
information. Likely, the government employee resubmits it the 
way they typed it the first time, and you never know that the 
reason you were rejected was a typographical error.
    Mr. Raskin. Very good. Thank you very much. Let's see.
    Mr. Hawkins, let me come to you. Texas put out a voting 
advisory in January that alleged that as many as 95,000 non-
citizens were on the Texas voter rolls. This advisory fell 
apart within days because it became clear that tens of 
thousands of people on the State's list were actually U.S. 
citizens and were wrongfully included on this list. The State 
pulled the advisory back in April in order to resolve multiple 
Federal lawsuits that were brought against it.
    Now, had Texas counties moved forward with removing people 
from the rolls based on this flawed advisory, Texas would have 
disenfranchised thousands of people, and yet, presumably, you 
would be here to say that that is not something that should 
have had to go through the preclearance process, and if it had 
happened, they could have sued later. What would you have said 
to the thousands of people who had been disenfranchised under 
that situation?
    Mr. Hawkins. Representative, thank you for bringing up that 
example. I would like to address the premise of that question. 
The bottom line is that not a single person had his voter 
registration cancelled, not a single----
    Mr. Raskin. Because of the lawsuits that were brought 
against it, right?
    Mr. Hawkins. Because Texas did the right thing. There was 
an error, a miscommunication between the Texas Department of 
Public Safety based on incorrect----
    Mr. Raskin. I guess that is the whole point here. Who 
should bear the burden of the errors of the State? Should it be 
the people of the State who are trying to vote, or should it be 
the government officials who should get their hands slapped in 
a preclearance investigation by the Department of Justice?
    Mr. Hawkins. Your Honor, I--or excuse me. Representative, I 
don't think----
    Mr. Raskin. That is fine.
    Mr. Hawkins. I don't think that the experience that you are 
referring to implicates that question. The Secretary of State 
does not have the power to remove individuals from the voting 
rolls. County officials are responsible for maintaining the 
voting rolls in each county, and those county officials may 
remove a voter from the voting rolls only after a number of 
safeguards have been satisfied, including post removal judicial 
review, which is very much a part of the process.
    Mr. Raskin. Well, let me ask you this.
    Mr. Cohen. Your time is over by a minute. Thank you, Mr. 
Raskin.
    Mr. Raskin. Thank you, Mr. Chairman.
    Mr. Cohen. Do you have to leave for the airport?
    Mr. Hawkins. Yes, Mr. Chairman. I have got a flight back.
    Mr. Cohen. I am just going to ask you for the heck of it. 
What time is your--when does your flight leave?
    Mr. Hawkins. My flight leaves at, I believe, 5:50.
    Mr. Cohen. You can make it in plenty of time. I don't want 
to stop you. But Ms. Abrams' flight is at what, 5:15?
    Ms. Abrams. 5:40.
    Mr. Cohen. 5:40.
    Mr. Raskin. You guys can share a taxicab.
    Mr. Cohen. We have got three more people, which is 15 
minutes. Can you wait 15 minutes? You will make it, believe me. 
I leave in an hour, and I make it.
    Mr. Hawkins. Understood, Mr. Chairman.
    Mr. Cohen. All right. Let's go. 5 minutes on the nose. Ms. 
Garcia, you are on.
    Ms. Garcia. I will dispense with any preliminary remarks. I 
just want to dive into the comment you just made in response to 
my colleague, Mr. Raskin. I mean, I just am sitting here in 
disbelief that you are suggesting that Texas did the right 
thing in this whole purging order of these 95,000 registered 
voters. I mean, the Secretary of State's office and the 
Governor and it seems like everyone up in Austin was suggesting 
that this was not happening, that it was really, you know, 
something that they didn't mean to do. I mean, it took almost 5 
months, and the entire Senate not voting for the Secretary of 
State which he still did not get confirmed. And to have you sit 
here now and say that they were doing the right thing just as 
you are suggesting that Texas always is taking the lead, I am 
telling you. I was there sitting in the Texas Senate when we 
voted on the agreement on the Voting Rights Act--I mean, Voter 
ID. We were not taking the lead. I did not like some of it. I 
thought it wasn't good enough, but we were pretty much forced 
to do it because of the pending Federal court case.
    So I just want to clarify the record that some of the 
statements that you are making are, quite frankly, quite 
misleading, and I take offense to some of them and the 
characterizations that you have made.
    But having said that, because I said I was not going to 
make a preliminary remark, Texas is really almost the poster 
child for Voting Rights Act violations. I testified before the 
Senate Judiciary Committee back in 2014, and as I reflected on 
the testimony I presented there then, not much has changed. 
When I testified back in 2014, between 1982 and 2005, for 
example, Texas had earned 107 Section 5 objections to voting 
policy, second only in number to Mississippi; 97 concerned 
local laws and affected about 30 percent of Texas counties home 
to disproportionate share, nearly 72 percent of the State's 
non-voting population. And it is true, Ms. Aden. How many times 
have Federal courts found intentional intent discrimination? Is 
it seven, eight? I have lost track.
    Ms. Aden. Across five States, there are about 9 decisions 
of intentional discrimination since Shelby.
    Ms. Garcia. Since Shelby. And how many of those have been 
vacated completely, and not sent down for rehearing and another 
trial?
    Ms. Aden. I believe all of the nine across those five 
States are still standing decisions of intentional 
discrimination under the Constitution.
    Ms. Garcia. Right. They are still standing. Now, which one 
of our redistricting maps are we working under? Is it not true 
that most--we are still under the temporary maps because we are 
still in litigation since the last Census?
    Ms. Aden. So the two--there are decisions from after--
decisions related to the 2011 maps that forced the interim 
plans that were, in large part, upheld by the Supreme Court, 
but those early decisions that led to the interim remedy, those 
were based upon findings, preliminary findings of intentional 
discrimination, and those have not been disturbed.
    When this case eventually made it to the Supreme Court, 
while an entire decade had passed and many elections had taken 
place, the Supreme Court upheld the discrimination in one 
district. So it is a very complicated posture, but our position 
is that there are intentional discrimination rulings from 2011. 
That is the basis for the bail in relief that advocates are 
still continuing to urge in District Courts in Texas. And Texas 
represents--it is the poster child, but there is also evidence 
from many other States that this body should examine that 
warrants Section 5 preclearance.
    Ms. Garcia. But the only one where we have a bail-in 
provision would be the Pasadena case which actually you said in 
my district, in working together with MALDEF, we were able to 
litigate that. In fact, I testified about Pasadena at the 
Senate Judiciary Committee in the Galveston County case. It 
just seems like a lot of that, because my district is 77 
percent Latino, and that is where a lot of stuff happens.
    Ms. Aden. And I would just correct you. That was the only 
court-ordered bail in Pasadena. Since Shelby, Allen Evergreen, 
Alabama, a court found intentional discrimination, and the 
parties agreed to bail-in, so there two jurisdictions that 
since Shelby have been subject to bail-in, but that is far 
insufficient.
    Ms. Garcia. I am almost losing my time here, but just one 
quick question. On this, Section 5 was meant to, as you said, 
to get to the harm before it starts. How much does this 
litigation cost? I mean, some of these cases go on 5, 6, 7 
years. Just ballpark figure. I know every case is different, 
but just generally speaking, how much do we have to spend on 
this?
    Ms. Aden. On average, hundreds of thousands of dollars, if 
not millions, and that includes not just challenges to 
statewide measures, but even suing one county can cost hundreds 
of thousands, if not millions of dollars, and that is both 
taxpayers' money to fight discrimination, and that is taxpayer 
money drawn by the discriminators to defend discrimination.
    Ms. Garcia. Thank you. And Mr. Chairman, I would like to 
ask unanimous consent to enter into the record the entire 20 
some pages----
    Mr. Cohen. Without objection, it will be done.
    [The information follows:]

      

=======================================================================  
_______________________________________________________________________


                   MS. GARCIA FOR THE OFFICIAL RECORD

=======================================================================

      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Ms. Escobar for 5 minutes.
    Ms. Escobar. Chairman Cohen, thank you so much for holding 
this hearing, especially on this very important anniversary, 
and thanks to all of our panelists for being here. I am very 
grateful for your testimony.
    Although I will say I am shocked to hear the opinion that 
Texas has done the right thing when it comes to its voter 
suppression efforts, because we all know that the consequences 
to voter suppression completely change the outcome of elections 
and change the public's ability to have true representation in 
public office.
    Mr. Chairman, I would like to please enter into the record 
an article about my Governor, who is reportedly--emails show he 
is behind the effort to purge the voter rolls in Texas, an 
effort that many of us saw as a surreptitious way to change the 
outcome of elections, and to try to circumvent the changing 
demographics in our State.
    Mr. Cohen. Without objection, it will be done.
    [The information follows:]

      

=======================================================================  
_______________________________________________________________________


                  MS. ESCOBAR FOR THE OFFICIAL RECORD

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. Thank you, Mr. Chairman.
    Ms. Abrams, you and I share the fact that we both come from 
a State that--States, Texas and Georgia, that were previously 
covered under the preclearance formula. In your testimony, you 
illustrate the challenges Georgia faces in a post Shelby world, 
and I see so many parallels between our two States, given the 
example that I just cited.
    Can you please expand on the voter roll purges in Georgia? 
What are some of the key lessons that you learned that you can 
share with us through your work with The New Georgia Project 
and Fair Fight Action? What can Texas learn from Georgia?
    Ms. Abrams. I am going to decline to answer that question, 
but I will answer the larger question. I would say, first of 
all, during the tenure of Secretary of State Brian Kemp, 1.4 
million voters were purged. In a single day in 2017, half a 
million voters were taken off the roll, a reduction of the 
Georgia rolls by 8 percent.
    Now, to the credit of the State, we have a version of 
automatic registration, which has added about 681,000 voters to 
the rolls, simply by signing up for their driver's license. The 
challenge is that a number of those people who are availing 
themselves of that were unlawfully purged during the 1.4 
million-person purge.
    The challenge is that in Georgia, we face not only 
malfeasance, but incompetence. There are people being removed 
from the rolls who should not be removed. There is no condition 
for their removal, but we have been able to demonstrate that 
the communication from the Secretary of State's office has been 
inadequate to the task.
    There has been a constant attempt to defer responsibility 
to the localities to say that it was the county's fault for not 
doing so, but the reality is the Secretary of State is the 
election superintendent. That is the person in charge. The buck 
stops with that person. And the challenge with the way voter 
purging happens is that no one is responsible, but voters are 
losing their rights.
    In the State of Georgia, there has been an argument that 
because we had the highest turnout record in Georgia for voter 
turnout in 2018, there could not have been voter suppression. I 
would argue that that is the moral equivalent of saying that 
because more people get in the water, there can't be sharks.
    The reality is that voter suppression is adapting to the 
changing demographics of our country, and the reality is that 
voter purging is one of the tools used. It may be an imperfect 
tool, because people will continue to seek their rights. They 
believe that they have the right to vote. I grew up with 
parents who instilled in me a respect for that right, and there 
are those who will aggressively and assiduously pursue it, but 
there are so many others, who when rejected by their State, 
when rejected by their government, they turn away, and they do 
not return.
    And that is what is so pernicious about voter suppression, 
that we have people who believe now that they have no voice 
because of error, because of intentionality, and because of 
racial discrimination. And those are challenges that not only 
affect Georgia, but they affect the rest of the country.
    One thing I will say is that I do believe that one of the 
opportunities we have here is to expand the coverage of Section 
5. I do believe that there is a broader need for Section 5 to 
not simply be afforded or to provide coverage to those States 
that have a history of bad action, because the reality is more 
States have joined the party. More States have decided that 
because they cannot win elections fairly if there is full 
participation, then the goal is to limit who can participate. 
And that is a fundamental flaw in the process, and it is 
dangerous to our democracy, and we have to recognize that voter 
suppression, while it may target voters of color, it will 
affect us all.
    Ms. Escobar. Thank you, Ms. Abrams.
    Mr. Chairman, I yield back.
    Mr. Cohen. Thank you so much for your courtesy.
    Ms. Jackson Lee is recognized for 5 minutes.
    Ms. Jackson Lee. Let me thank the committee for holding 
this very important hearing, and for the record, I would like 
to put the following statement in.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jackson Lee. Just after the purging of approximately 
98,000 individuals in the State of Texas, Solicitor General 
Hawkins, Republican officials were quick to claim that the 
Secretary of State's actions were further evidence of growing 
threat of widespread voter fraud. On January 25, 2019, the 
Texas Attorney General sent a tweet proclaiming voter fraud 
alert. The Secretary of State discovered approximately 95,000 
individuals--this is all a quote--identified by DPS as 
noncitizens having a matching voter registration record in 
Texas, approximately 58,000 of whom had voted in Texas 
elections. Any illegal vote deprives Americans of their voice. 
President Donald Trump tweeted 58,000 noncitizens voted in 
Texas, with 95,000 non-citizens registered to vote. These 
numbers are just the tip of the iceberg. All over the country, 
especially in California voter fraud is rampant. Must be 
stopped. Strong voter ID.
    Ms. Abrams, first of all, thank you for the work that you 
are doing in your new leadership, and certainly everyone 
watched the numbers of purging that occurred in Georgia. We are 
stuck on that, because I think you made a point is that purging 
suppresses and oppresses the vote, and it creates an aura of 
fear which happened in my Congressional district.
    So would you expand on that, with the aura of fear of 
purging, and also the exaggeration or the tilt when national 
leadership takes up the position that voter fraud is rampant 
across the country?
    Ms. Abrams. Certainly. Thank you for the question, 
Congresswoman. I would say, first, that there is a legitimate 
purpose to maintaining effective voter rolls. There is a 
legitimate purpose to laws that allow for the cleaning of rolls 
for people who have passed way, for people who are no longer 
eligible to vote, for people who moved from the State, and I do 
not believe there is any well-intentioned person who would say 
that cleaning and maintaining the rolls is improper.
    But what we argue is that the approach that has been taken 
has been so egregious and so flawed and sometimes so directly 
intended to harm voters of color, that we have undermined the 
intention of actually maintaining access to the rolls.
    In the State of Georgia, as I pointed out, 1.4 million 
people were purged between 2010 and 2018. Half a million were 
purged in a single day in the State of Georgia. That should 
raise alarms for anyone, because the reality is when you show 
up to vote, and you are told that you cannot cast a ballot 
because you have been removed from the rolls, even though you 
know that you should not have been, you are now called upon to 
become your own attorney, to argue with who is likely a 
volunteer that you have the right to vote. And if you happen to 
be in one of those hypersuppressive communities, that ability 
may be quashed.
    Georgia relied on an historic number of provisional ballots 
in the 2018 election. That meant that people cast their votes, 
believing they were allowed to actually make a choice only to 
have those votes later thrown out, and we have found a 
disturbing number of people who were given provisional ballots 
not because they were not effectively registered but because of 
the malfeasance and incompetence of the Secretary of State's 
office.
    Ms. Jackson Lee. Thank you. Solicitor General Hawkins, 
would you not argue, or could you not support the fact that 
minority voters are disproportionately affected by purging, and 
as I listen to your argument about having prevailed in the 
appellate court, you are right. As a lawyer, I understand the 
chances you take, but it is well known that the Fifth Circuit 
has never been supportive of civil rights legislation through 
the ages, so it is nothing unusual that you would have 
prevailed.
    My question, again, to you is, do you not see the purpose 
of looking to, or the purpose of purging outside of what 
gubernatorial candidate Abrams indicated of cleaning the rolls 
that you have seen being utilized to purge minority voters, 
particularly in Texas?
    Mr. Hawkins. Thank you for the question, Representative. 
First, I am not familiar with the lay of the landscape in 
Georgia, and I am not familiar with----
    Ms. Jackson Lee. I am only asking you about Texas and the 
anecdote--not the anecdote but the statement that I read about 
the joy of purging 95,000 individuals through the Secretary of 
State's office in Texas.
    Mr. Hawkins. Representative, 95,000 individuals were not 
purged.
    Ms. Jackson Lee. Only after a lawsuit was filed.
    Mr. Hawkins. The Secretary of State does not have the power 
to remove anybody from the voter rolls.
    Ms. Jackson Lee. They sent the information to our local 
counties, and I can tell you, it created hysteria.
    Mr. Hawkins. And they may remove individuals from the voter 
rolls in counties only after a number of safeguards, including 
judicial review, have been surpassed. I think it is important 
to note that Texas----
    Ms. Jackson Lee. The chilling effect was already there.
    Mr. Hawkins. I am sorry, Representative?
    Ms. Jackson Lee. The chilling effect was already present.
    Can you answer about Section 5? Is there any reason for 
Section 5 not to be reimplemented?
    Mr. Hawkins. Yes. The Supreme Court's decision in Shelby 
County, which held that preclearance under the current 
landscape is unconstitutional.
    Ms. Jackson Lee. If Congress is to reinstitute it, would 
there be any reason not to have it reinstituted? I understand 
Shelby.
    Mr. Hawkins. The Congress should pass legislation that is 
constitutional. In fact, Congresspersons have sworn an oath to 
the Constitution of the United States.
    Ms. Jackson Lee. We intend to do that.
    Mr. Cohen. Our time is up. Our time is up.
    Ms. Jackson Lee. Thank you. We intend to do that. Thank 
you.
    Mr. Cohen. Our time is up. Thank you.
    Mr. Collins wants to come. Is he here? He is. Mr. Gohmert. 
You would like to have questions? We want to get--they want to 
ask you questions. You know, it is up to you. He is from Texas, 
he is blah, blah, blah, and Ms. Abrams, you are free if you 
want to split.
    Mr. Nadler for a brief question, and then Mr. Gohmert.
    Chairman Nadler. Thank you.
    I was intrigued by something that Ms. Abrams said a few 
minutes ago when she said that, if I understood you correctly, 
that history of discrimination is not sufficient--I don't mean 
that--is not the only thing, is not the only thing that should 
justify preclearance. What else, in your opinion, should 
justify preclearance?
    Ms. Abrams. What we have found, not only through the work I 
have done in Georgia, but through conversations with colleagues 
in other States is that what is currently happening is that as 
demographic changes occur, and there are increasing numbers of 
people of color who have the right to vote, we are seeing a 
concomitant increase in the hurdles that are being placed in 
front of them to diminish their opportunity to vote. That has 
been seen in Wisconsin, in Ohio, in North Carolina. Across the 
country, we have seen increases in the chilling effect on the 
access to the right to vote. And therefore, any restoration of 
Section 5 should, I believe, set a universal standard that 
disallows any processes that would diminish the ability for 
people of color to access the right to vote, based not only on 
historical precedent, but based on current operations and 
current activities.
    Chairman Nadler. Thank you very much.
    Mr. Cohen. Thank you. And we have cabs for you all, and we 
will ask everybody to stay seated when we finish so they can 
get out and get to their cabs, and no pictures, no autographs. 
They have to make their cabs.
    Mr. Gohmert.
    Mr. Gohmert. Thank you. Mr. Hawkins, I know you are trying 
to catch a plane. Anything you need to respond to? I had some 
questions for you, and especially with regard to how Texas uses 
Section 2 of the Voting Rights Act. But anything based on what 
you have heard you want to add before you have to go?
    Mr. Hawkins. Thank you, Representative. I think it is 
important to underscore that Texas has a duty under State and 
Federal law to ensure that its voting rolls are accurate as 
does every other State. And, in fact, Texas has a compelling 
interest in ensuring that ineligible voters do not vote.
    Now, why is that so? It is because any time somebody votes 
unlawfully, that suppresses the vote of a lawful voter. And 
that is why we are seeing not just Texas, but many other the 
States, including just this week California, auditing voter 
rolls to ensure that only registered voters are--that only 
eligible voters are registered to vote. That is the purpose of 
auditing voter rolls, to ensure that the right to vote is 
protected because if somebody who is ineligible to vote votes, 
that suppresses the vote of a lawful citizen.
    Mr. Gohmert. I appreciate your efforts so much, and I would 
like to indicate for the record, and I won't have any further 
questions, Mr. Hawkins. I am told that you are trying to get 
away.
    But with regard to the need for this hearing and all, I 
think it is important to note the facts on the reauthorization 
of this. I was fairly new here in Congress, but it seemed very 
clear to me that since Section 4 had not been changed for about 
40 years, it was still penalizing States for sins, wrongs, 
decades before by fathers and grandfathers, so to speak. And 
so, I know Chairman Sensenbrenner was pushing hard. He didn't 
want changes. He was not open to my suggestions.
    But we looked at a map of areas where there was a very 
definite problem, a disparity in the numbers based on racial 
voting, and there were some problems around the country that 
were not included in the States that had to get Section 5 
clearance. And I had an amendment that would require any State 
that had a significant disparity in racial voting, they had to 
fall under Section 5.
    And let's update that, Section 4. Let's get a new standard 
in there. And Chairman Sensenbrenner said, Absolutely not. We 
are not changing it. And as I recall, there was a district in 
Wisconsin that had a significant disparity problem that might 
have fallen under Section 5. And Mr. Conyers was much more open 
to the idea of having an amendment that would require any 
district, any State in the country with a racial disparity 
problem would have brought them under Section 5.
    And I said most recently before the second time I talked to 
him, he was open to it. He said, you know, Louie, I have been 
talking to some of our experts, and they say Yeah, it is a 
risk. It might get struck down, so why don't we just go ahead 
and wait and see what happens? And I said I just talked to the 
previous dean of New York University Law School, and he said he 
sees a substantial chance that it will be struck down by the 
Supreme Court when it gets there. But the bill was done. They 
would not allow my amendment to be passed, and therefore, it 
would continue to punish only those who had engaged in 
wrongdoing decades before instead of bringing it current to 
make districts, States that were failing to have fairness 
racially have to answer under Section 5. And just as I 
predicted, just as others predicted, it got struck down, and we 
are still here without a modification that could have been done 
back in that reauthorization.
    So anyway, I am hoping that we will work things out. I am 
proud of the way Texas has been using Section 2 litigation to 
get this straight or get problems straightened out even without 
changes to Section 4, and I appreciate the chance to air these 
matters, and I yield back. Thank you very much.
    Mr. Cohen. Thank you, sir.
    We have got two more people that want to ask questions. If 
either one of you want to leave, you are free to leave.
    Mr. Hawkins. Thank you, Mr. Chairman. I have to take off.
    Mr. Cohen. You agreed to 15 minutes. You did it. Thank you 
so much for your testimony.
    Ms. Abrams, we have got people willing to take you to the 
cab and get you out of here.
    Ms. Abrams. I can stay.
    Mr. Cohen. Great. Thank you, sir.
    First, Ms. Dean, you are recognized for 5 minutes.
    Ms. Dean. Thank you, Mr. Chairman, and I thank all of the 
witnesses, those who had to leave and those for sharing your 
views and your expertise.
    As we know, this is an important subcommittee hearing. This 
is an important set of issues. Suffrage is as fundamental a 
right as any in our Constitution, and the right to vote lies at 
the very heart of our democracy, that delicate democracy. 
Benjamin Franklin famously noted that the Framers left us with 
a Republic, but only if we could keep it, and of course, 
central to keeping it is public participation in elections. A 
government of the people, by the people, for the people should 
mean all the people.
    And so I was interested--I apologize. I stepped out to go 
to another meeting, so if I am being redundant, I apologize. I 
hope I am not. I had terrific scouts here listening.
    One of the things I was interested in, under Section 5, 
jurisdictions were required to provide racial impact data to 
the Attorney General as part of the preclearance review 
process, including information on the anticipated effect on 
racial minority groups and also, where necessary, information 
on demographics, maps, annexations, election returns, language 
usage. Can you tell me, is that kind of data still being 
collected post Shelby?
    Ms. Abrams. I will defer to Ms. Aden.
    Ms. Dean. Ms. Aden.
    Ms. Aden. So you are absolutely correct that through the 
process, the burden was on jurisdictions to shine a light on 
what they were planning to change, and the burden was on them 
to show what was the impact. Was it going to lessen the ability 
of people of color, Native American, African American, Asian 
American, Latino to be able to participate? And as it stands, 
what H.R. 4 does and what we need is that notice again of the 
voting changes and the burden to show what the impact is to be 
placed on the jurisdictions seeking to implement that law.
    Ms. Dean. That is the other piece of it, and from anecdotal 
and your personal experience, the other piece is what you just 
said, shine a light on the proposed changes so the public was 
on notice. The public notice piece. And I assume that has now 
dropped away because we no longer have the Section 5 
preclearance.
    So it is not only shine a light before any changes, the 
education of voters, but then also collect the data after to 
see what the impact. So now as a result of Shelby, we are not 
doing either. Is that right?
    Ms. Abrams. Correct. Under Fair Fight Action, we filed 
Federal litigation, and among our proofs, we were able to 
demonstrate that due to the purging of voters and the patterns 
of purging and the number of people who were forced to cast 
provisional ballots because of the ineffectiveness and the 
malfeasance of that process, there is essentially a racial map 
of African American communities that were subject to casting 
provisional ballots which have to be remedied. And if you are a 
working person, you might get Tuesday off. There is no 
allocation in State law to give you Wednesday and Thursday to 
go back and fix something that should never have been broken.
    Ms. Dean. Right.
    Ms. Abrams. We also know that Georgia had an extraordinary 
number of poll closures. We had 214 polls close out of roughly 
3,000. Those are largely African American communities. And 
while those poll closures may have been permissible because of 
some nuance of law, what we found was that there was a 
disproportionate effect on communities of color, largely 
African American, particularly poor. If you do not own 
transportation, and there is no public transportation, the 
closure of a polling place that is 2 miles from your house now 
being moved to 10 miles from your house has not only a chilling 
effect on your right to vote, it absolutely negates your 
ability to cast that vote.
    Ms. Dean. I couldn't say it any more eloquently than that. 
I come from a previous experience in the Pennsylvania 
legislature, pre-Shelby. Before I had gotten there in 2011, I 
guess, or early 2012, Pennsylvania passed a voter ID law which 
was ultimately struck down as unconstitutional, but I was a 
brand new State representative trying to help people navigate 
the world of what am I going to do if I need some sort of 
specified identification. We know exactly what that was 
intended to do.
    And I will close with this notion because I wasn't here. 
Sometimes I think witnesses have something they wish they could 
have been asked, and they didn't get the chance to say it, so 
may I ask you, Ms. Abrams, is there something more that you 
wanted to say, and the same to you, Ms. Aden.
    Ms. Abrams. I do think, and I want to reiterate this false 
connection that is being drawn between voter turnout rates 
among communities of color, and voter suppression. These are 
not correlated. One can have intentional laws and practices to 
discriminate against voters and have a concomitant effort by 
communities that care about these issues to push back and to 
provide access. I am a part of a long legacy of people who have 
responded to oppression by making certain that we overreact, 
and that we overperform, but we cannot ignore the fact that 
that discrimination still exists. Discrimination doesn't cease 
to exist simply because there are those who are willing to 
fight back. That fighting back should demonstrate how important 
it is to eliminate the discrimination on its face.
    Ms. Dean. Thank you, Ms. Aden.
    Ms. Aden. And I just want to correct that. The reason why 
we focus on Texas is because we love Texas. In fact, we love 
the voters of Texas. We want people to participate. So I don't 
want today to be a show just about Texas or just about Georgia. 
As Ms. Abrams said, Congress can and must hold hearings and 
look at the landscape of voter suppression across the country. 
Look at what is happening to Native American voters in North 
Dakota, where they are required to have an address on their 
photo ID, even though many live on reservations and do not have 
that. Look at Kansas where one polling place was left open, and 
it was out of town, and there is no public transportation. Look 
at Wisconsin, which has been invoked. Look across the country. 
And it cannot be the case that we are happy with the way that 
elections are taking place in our country. It is unacceptable. 
And it is because we love the people who want to participate 
that is incumbent upon us to work to fix the problem.
    Mr. Cohen. Thank you very much. Thank you, Ms. Dean. Now we 
recognize Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    Ms. Abrams, and one of the things that is good about this, 
and I am glad you are here. In 2011, back in a different time 
in a different world for both of us, you voted in favor of a 
bill to reduce early voting period to 3 weeks and add a 
Saturday, correct?
    Ms. Abrams. Correct.
    Mr. Collins. House Bill 92. I will enter that into the 
record. It has been stated earlier by the chairman of this 
committee----
    Mr. Cohen. Without objection.
    [The information follows:]

      

=======================================================================  
_______________________________________________________________________


                  MR. COLLINS FOR THE OFFICIAL RECORD

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Collins. Thank you [continuing]. By the chairman of 
this committee that restricting early voting has actually had a 
disproportionate impact on minority voters. I know that was 
very much a concern for you at the time, and you and 
Representative Mark Hamilton had those conversations, and it 
was showed that there was either no difference in 
participation, or actually, there was at least a benefit to 
minority voters at that time. Would you agree with that 
statement?
    Ms. Abrams. I would agree, but I believe it is important to 
clarify. Georgia at the time had an outsized number of early 
voting days, 45 early voting days. The national standard, the 
gold standard was 21 days. Therefore, what Georgia did by 
reducing from 45 to 21 days was to come into conformity with 
the most appreciated and the most accepted role for early 
voting.
    Mr. Collins. Exactly.
    Ms. Abrams. However, since that time, there were multiple 
opportunities, multiple attempts made in the Georgia general 
assembly to actually restrict from 21 to 7 days, and I 
vigorously opposed every one of those bills and fought them 
back.
    Mr. Collins. Reclaiming my time. I was not there. We were 
there on this one, and I think the interesting issue was is the 
point that I am making is that when you do carefully calculate, 
it was to the norm. There was not a discriminal threat, and the 
statements of broad impact can't be used all the time because 
it leads to bad decisions when you blanketly say something 
affects in a disproportionate way.
    You just admitted, I just saw, and we had the bill pass. 
But in that 3-week period which was part of what was actually 
said by our chairman, it did not do that. A 7-day, we could 
probably agree on, but in that part, it did not. So you can't 
blanketly say bringing back early voting does that.
    Another issue that has that has come to mind, and I have a 
question. I am glad you said it and a previous witness. You 
said there are reasons to keep a voter roll accurate. The 
question, though, as you come into this process, you stated 
something earlier about exact match that I am not sure we 
actually--I want to make sure that we are clear on. And this is 
a couple yes-nos. 1.4 million were purged. You say that. It is 
in your written testimony. Do you believe all of those were 
purged for wrong reasons? Yes or no?
    Ms. Abrams. Of course not.
    Mr. Collins. Okay. Let's look at that. The question you 
also said among the exact match and the 53,000 voter 
registrations we will use as you put in your thing was held 
hostage. The question has--and you said it is because of 
government bureaucrats or government workers who mistakenly put 
information in, and that is the only reason you have given that 
these exact match doesn't work. Is it not true that, however, 
the person who is actually inputting information has to have 
accurate information to put in so that it is accurate? Would 
that be a fair statement?
    Ms. Abrams. I do not believe that fairly characterizes 
the----
    Mr. Collins. So you do not believe that a statement, 
something that is given--if I put a--filled out a form and it 
was half filled out, or I did not put my last name, or I did 
not put my date of birth, or I did not put an exact--I did not 
put an address, is that a form that can be actually used by a 
local voter registrar to actually fill out a form that would do 
an exact match? Yes or no?
    Ms. Abrams. Sir, it is impossible to provide a yes-or-no 
answer to that question, because the exact match is not simply 
the question of what was put on the form. The challenge with 
exact match is not the entry on the form. It is the database 
that is then used to verify the access to this information. And 
so absent the second part of the process, it is an 
impossibility to give a truthful answer to the question 
presented.
    Mr. Collins. But the truth--and you are still as good as I 
remember you. The issue is here, though, is not this. If it is 
not right for the exact match, to match what they need to match 
for verification process, if I turned it in, still did not 
match it up, it was my input on the form or the person 
collecting or the group collecting this that did not turn in a 
form that a person in the voter registration office could 
actually use to do exact match, not what they were matching to. 
But if I did not give them proper match, then that is the 
problem. There has at least got to be the understanding it is 
not just a government data input problem, and we are not 
throwing all voter registration people under the bus with this. 
I think that is the problem that I have in your answer, because 
it implies a governmental problem, which also goes back to a 
bigger issue that I have here, and that is the implication that 
Brian Kemp, the Governor of the State of Georgia, is the person 
behind all of the problems here.
    And this has become a bigger question for the State that 
you and I love. When you had a former presidential or a 
presidential--a current presidential candidate come to Georgia 
and make a statement in your defense and basically said that 
Stacey Abrams will be Governor of Georgia if Georgia wasn't 
racist. I don't think that is what you want Georgia to be 
looked at, and I don't think that is what I wanted, and I have 
actually talked to this individual. The question is making sure 
we have accurate voter rolls, even by your group's 
administration, making sure that our accurate voter rolls are 
there, and that people have a possibility of doing that.
    The question, though--one last question that I have in 
here, and we could go on, but I know you have got a flight, and 
I will see you again, hopefully under different circumstances, 
but one question bugged me from the whole time I watched it. 
There was a clip, and you said it even afterwards. When we are 
talking about our voter rolls being there for every person, 
every citizen, do you believe that non-citizens should vote in 
the State of Georgia?
    Ms. Abrams. No, and I have never said that non-citizens 
should be allowed to vote.
    Mr. Collins. What did you say, by the way?
    Ms. Abrams. What I said was that the blue wave which was 
not a reference to the right to vote, but a reference to the 
resistance of this administration's policies that have 
disenfranchised, dehumanized, and harmed the ability for people 
of the United States of America to fully exercise their rights 
and freedoms, that the change that would come, which is 
euphemistically referred to as the blue wave would be achieved 
by people who are both documented and undocumented. That did 
not refer to, and in fact, it has been proven through 
Politifact analysis I never once called for anyone who is not 
legally eligible to vote to be able to do so. And I would refer 
you to our long tenure together, where I worked with Democrats 
and Republicans to always ensure the integrity of the right to 
vote. It has been my practice as an adult since my time in 
college.
    And with due respect, the reality is that we as a Nation 
stand as an emblem of what democracy can mean, and that is 
diminished when there are irregularities, when there are 
malfeasance and misfeasance activities that undermine the right 
to vote. And that is what I have called attention to, and that 
is the work that I am doing.
    Mr. Collins. And that is exactly what the problem is, is 
when we have the far--even from groups taping----
    Mr. Cohen. Our time is up. Thank you, Mr. Collins.
    I appreciate the panelists coming and your testimony. We 
will have 5 days for members to come up with questions, and 
they can submit them in writing, and we would ask you to answer 
them.
    And with that, the hearing is adjourned.
    [Whereupon, at 4:53 p.m., the subcommittee was adjourned.]

      

=======================================================================  
_______________________________________________________________________


                                APPENDIX

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
</pre></body></html>
